<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:33 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Hoeven, Daines, Capito, Udall, 
Tester, Merkley, and Van Hollen.


                      UNITED STATES FOREST SERVICE

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY SHERI ELLIOT, ACTING DIRECTOR, OFFICE OF STRATEGIC 
            PLANNING, BUDGET AND ACCOUNTABILITY


              opening statement of senator lisa murkowski


    Senator Murkowski. Good morning, everyone. The subcommittee 
will come to order.
    Today marks the first hearing of the Interior 
Appropriations Subcommittee to review the President's fiscal 
year 2018 budget request. Today, we will be reviewing the 
proposal for the Forest Service.
    I am pleased to welcome back to the subcommittee Chief Tom 
Tidwell. I would also like to welcome Sheri Elliot, who serves 
as the Acting Director of the Office of Strategic Planning, 
Budget and Accountability at the Forest Service, and is 
accompanying the Chief today. Thank you both for being here.
    As a reminder to colleagues, we will adhere to the ``early 
bird rule'' for recognizing Members for questions. I will call 
on Members in the order in which they arrive, going back and 
forth between the Majority and Minority. We will do 6-minute 
rounds; hopefully have an opportunity for two, perhaps even 
three rounds.
    I do recognize that we have a vote that I believe is 
scheduled at 10:30 this morning. We will work around that.


             forest service fiscal year 2018 budget request


    Now, the budget request itself. The budget request for the 
Forest Service for fiscal year 2018 is $4.7 billion. This is 
$880 million less than fiscal year 2017 when you factor in the 
$342 million in emergency funding Congress provided above the 
10-year average in the event of a severe fire season.
    The request for the Wildland Fire Management Program is 
$2.495 billion, with fire suppression funded at the full 10-
year average of $1.057 billion.
    The budget does not propose a wildfire cap adjustment or 
any type of ``fix'' for fire borrowing. However, buried in the 
proposal is a statement that the administration ``Will work 
with the Congress during the 2018 budget cycle to develop a 
responsible approach that addresses risk management, 
performance accountability, cost containment, and the role of 
State and local government partners in ensuring adequate funds 
are available for wildfire suppression without undue disruption 
to land management operations.''
    I think the Chief knows that Senator Udall and I just 
returned from a meeting this morning with the Secretary of 
Agriculture, and spent extended discussion about just this 
issue.
    Chief, as you are painfully aware, the cycle of borrowing 
and repayment and the accompanying lack of budget certainty and 
discipline is not helping to improve the health of our Nation's 
forests.
    I am pleased that this administration recognizes the 
problem, and look forward to working with the Forest Service 
and the Office of Management and Budget to address this issue 
during this budget cycle in a fiscally responsible and 
politically feasible way.
    As I had mentioned to the Secretary, it kind of feels like 
this is Ground Hog's Day on this issue. Every year, we come 
back before the subcommittee and hear the same issues raised 
repeatedly. So, being able to address this needs to be a 
priority.
    Chief, this budget request is very different from the 
previous administration's proposals for your agency. Rather 
than a wish list of spending paid for with budget gimmicks, 
this budget proposes some very real cuts to programs. The 
worthiness of the cuts kind of runs the gamut here. Some are 
worth consideration, some I find very troubling, and some are 
in direct contradiction to other proposals in the budget.
    For example, the timber target is again set at 3.2 billion 
board feet, a level that is not as high as I would like to see 
it. I am concerned that the 73 percent proposed cut to capital 
improvement and maintenance will make that target difficult if 
not impossible to achieve.
    Without adequate funding for road maintenance and 
construction, the agency will be unable to provide necessary 
access for timber purchasers while also meeting legally 
required environmental standards.
    I am also concerned about the impacts of those proposed 
cuts on many other forest management activities, from 
firefighting to hazardous fuels reduction.
    The request acknowledges that it is the primary 
responsibility of the Forest Service to manage the national 
forests. When making tough funding decisions, we need to make 
certain we are meeting our basic forest health needs before we 
invest in other programs. While many of the funding levels are 
lower than I would like, I do appreciate that this budget 
proposal makes investing in national forest management needs 
its top priority.
    I am pleased that the request recognizes the importance of 
hazardous fuels management, and I am eager to hear more about 
the proposal to move the funding for that activity out of the 
fire program and into the National Forest System account.
    I am concerned, however, by the $12 million reduction to 
the recreation programs. Many communities rely on this program 
to help diversify their economies, particularly in Southeast 
Alaska.
    Again, I had the opportunity this morning with Senator 
Udall and Senator Cantwell to discuss the Secretary's vision 
for the Forest Service, and given the importance of the agency 
to the people and the economy of Alaska, I am hopeful that 
under his leadership the Forest Service will do more to make 
our forests the economic engines they should be, and not just 
in Alaska, but really all over the country.
    While Alaska paints a very stark picture of the need for 
robust and responsible uses of our national forests, the need 
is nationwide. Recreation, tourism, and forest products can and 
must coexist for us to have thriving and healthy communities 
and forests.
    This will take not only financial investments, but 
substantial leadership investments as well, and I hope the 
Forest Service is prepared to dedicate the time and the energy 
required to make this vision a reality.
    I thank you again, Chief, for being here. I look forward to 
your testimony. At this time, we will hear from the Ranking 
Member, Senator Udall.


                     statement of senator tom udall


    Senator Udall. Chairwoman Murkowski, thank you so much, and 
Chief Tidwell, thank you for being with us for our first 
subcommittee hearing on the President's fiscal year 2018 budget 
request.
    I am particularly pleased that you are here, Chief Tidwell, 
because your presence speaks to the important work that the 
agency staff does even when political administrations change. 
Thank you.
    Before we dive into the Forest Service budget itself, I 
want to note my concerns about the Trump administration's 
overall budget request. It is my guess that many of the 
decisions to shortchange key priorities in the Forest Service 
budget were made because the President has proposed to enact 
more than $54 billion worth of cuts to non-defense programs 
next year, a very unwise move, I believe.
    The decision to propose these massive cuts reverberates 
through programs that Members on both sides of the aisle care 
about, and virtually every agency. Within the Interior 
Subcommittee's jurisdiction alone, the budget proposes more 
than $5 billion in cuts compared to fiscal year 2017.
    What does that mean? It means a 30 percent cut to programs 
that preserve clean air and clear water within the 
Environmental Protection Agency's budget. It means a budget 
that slashes nearly $700 million from Tribal programs, ignoring 
this Nation's trust and treaty obligations for American Indians 
and Alaskan Natives.
    It means a 13 percent cut to the Interior Department, and 
it means devastating cuts to the Forest Service programs, the 
budget that we have today before us, that is what it does.
    In light of these irresponsible and callous cuts, I believe 
that this budget is dead on arrival. Luckily, we have an 
Appropriations Committee in the Senate that is committed to a 
bipartisan process of producing spending bills that reflect the 
true needs of our constituents.
    I look forward to working with my colleagues on both sides 
of the aisle on this year's bill.
    Now, for the Forest Service. The President has proposed to 
cut nearly $900 million in funding from the agency's budget. 
That does not leave enough funding to fight wildfires. It does 
not allow the agency to perform core land management functions. 
It provides virtually no funding for the Land and Water 
Conservation Fund, and it cuts grant programs nearly in half.
    Even programs that support some of this administration's 
stated priorities are on the chopping block. For example, the 
President has said that his focus is building infrastructure 
and creating jobs in rural America, and in many areas of the 
West, this means jobs related to public lands, yet the budget 
proposal cuts capital improvements by 84 percent to just $100 
million.
    How do we sustain the $10 billion generated by visitors to 
our national forests and the 143,000 jobs they create if we do 
not have roads to access the forests or safe and accessible 
facilities, or hiking trails for visitors to use once they are 
there.


           collaborative forest landscape restoration program


    Just as important, the budget also proposes to zero out the 
Collaborative Forest Landscape Restoration Fund, known as the 
CFLR. The CFLR program is a collection of 23 projects across 
the country, including two in New Mexico, that were selected to 
receive 10 years of funding to build a coalition of local 
support to restore healthy and resilient forests.
    Eliminating this program just does not make any sense. Many 
of these projects require only a few more years of funding to 
complete. In the meantime, these projects are focused on 
leveraging local support to create jobs and reduce fire risks.
    These are the kind of win-win activities that we should be 
investing in, not subjecting to shortsighted budget cuts.


                    wildland fire management budget


    Finally, I want to discuss the wildland fire budget. For 
the last several years, the Obama administration requested 
funding for firefighting activities at a new forecasted level, 
the amount expected to be spent rather than the 10-year 
average, which has proved to be insufficient to cover 
firefighting costs.
    The previous administration also proposed a disaster cap 
adjustment to ensure the public that sufficient funding would 
be available for fire suppression going forward.
    So, the agency would no longer be required to borrow from 
non-fire accounts and put construction, land acquisition, and 
restoration projects on hold. Although we have not yet been 
successful in enacting the disaster cap, Congress has provided 
additional funding in each of the past two Interior bills to 
cover actual forecasted needs, including $407 million in 
emergency funding. I added to this bill last year as an 
amendment with bipartisan support from Chairman Murkowski and 
other Members of this subcommittee.
    I am very disappointed, Chief Tidwell, that the President's 
budget makes no attempt to provide supplemental funds to shore 
up the 10-year average or to address the longer term structural 
problems with the wildland firefighting budget.
    I very much agree with Chairman Murkowski. We had a very 
good meeting with the Secretary of Agriculture. Senator 
Cantwell was also there. The two of them really educated him on 
what had gone on in the past, and he seemed to be very 
agreeable to try to help out on things. I hope he does. It 
seems like you educated him on some of these issues, too.
    Chief, you have said in the past that you were concerned 
that the agency, to which you have devoted your career, will 
turn into the Fire Service rather than the Forest Service.
    This budget with more than 60 percent of funds devoted to 
wildfire prevention and response is a dangerous step in that 
direction. It concerns me deeply.
    Wildfire season is well underway in New Mexico. We have had 
several fires so far this year. Two of them are currently 
burning as we speak, the Abaca fire in the Heeland National 
Forest, and the Monument fire in the Lincoln National Forest. 
So far, we have not faced any major threats to communities or 
catastrophic burns this year, but the risk is always very real.
    I hope to discuss this issue more in depth during our 
conversation this morning. Again, thank you for joining us, 
Chief Tidwell, and I look forward to hearing your testimony.
    Senator Murkowski. Thank you, Senator Udall. Chief, if you 
would begin with your comments, and then we will have an 
opportunity to ask our questions and have a response back and 
forth. Welcome to the subcommittee.


                 summary statement of chief tom tidwell


                    fiscal year 2018 budget request


    Mr. Tidwell. Madam Chair, Ranking Member Udall, also 
Members of the subcommittee, once again, thank you for giving 
me the opportunity to be here to discuss the fiscal year 2018 
budget request.
    As you mentioned, this budget focuses on our highest 
priority work, and that is to maintain and restore the forests' 
health, at the same time, to reduce the threat, the wildfire 
threat, to communities, and to sustain rural America.
    We do that by increasing our work on the ground. We are 
going to be restoring over 2.4 million acres with this budget, 
and it will produce 3.4 billion board feet. We are also going 
to be treating those 1.7 million acres in the Wildland-Urban 
Interface.
    This budget request also provides for the necessary 
suppression resources, the large air tankers, the helicopters, 
the engines and the crews, that are necessary for us to be able 
to maintain our success rate of suppressing 98 percent of our 
fires during initial attack.
    It also requests funding for the 10-year average. I want to 
once again thank you for your leadership and your hard work in 
finding a solution to this.
    The thing I want to point out, the 10-year average from 
fiscal year 2016 to fiscal year 2018 increases $156 million. It 
is just another point of the urgency to be able to resolve 
this.
    As you mentioned, this budget request also proposes some 
very difficult reductions in some very important programs. 
However, it does allow us to focus on the highest priority 
work, and at the same time for us to be able to maintain our 
relationships by supporting our States.
    I also just want to thank you for your support with the 
fiscal year 2017 budget, the overall budget, and especially the 
additional funding to deal with wildfire suppression.
    I also want to let you know that we are already 
implementing some actions to improve our budget accountability, 
to do a better job to ensure that we are spending the 
appropriated money every year that it is received, and we are 
putting different controls in place to ensure that there is 
less of unobligated balances from prior years, and we can 
actually get more work done every year.
    With that, I appreciate the time here, and I look forward 
to your questions.
    [The statement follows:]
                Prepared Statement of Chief Tom Tidwell
    Madam Chairman and Members of the subcommittee, thank you for 
inviting me here today to testify on the President's fiscal year 2018 
budget request for the Forest Service. I appreciate the support this 
subcommittee has shown for the Forest Service in the past and I look 
forward to working with you in the coming months and years as we 
continue to improve our Nation's forests and grasslands; increase our 
focus on the active management of our lands; and work with Congress on 
actions or options to address longstanding wildland fire funding 
concerns.
    The 2018 President's budget for Forest Service is nearly $5.2 
billion, of which $467 million is mandatory funding, and is a good 
investment for the American public. The funding and related work will 
support between 340,000 and 370,000 jobs in the economy and contribute 
more than $30 billion in Gross Domestic Product. The administration's 
commitment to rural communities, jobs creation, shared stewardship, and 
the production of goods and services from National Forest System lands 
is demonstrated by the funding level of Forest Products and the 
movement of Hazardous Fuels from the Wildland Fire Management to the 
National Forest System. Through the use of tools like the Good Neighbor 
and other Farm Bill authorities utilizing funding within permanent and 
trust accounts, the Forest Service will sell 3.2 billion board feet of 
timber while improving the resilience of more than 1.7 million acres of 
National Forest System lands through hazardous fuels removal.
    The budget strengthens the agency's financial accountability and 
increases predictability in its budget planning and execution process 
at both the National and Regional level. Starting in fiscal year 2018, 
Forest Service firefighters will charge all base hours (the first 8 
hours of each day) to Preparedness and, when fighting fires, charge any 
hours over eight per day to Suppression. The agency is continuing to 
strengthen its financial accountability and credibility through the 
implementation of policies that reinforce timely obligation of funds, 
the management of prior year unobligated balances, and quarterly review 
of unliquidated obligations.
                      the president's 2018 budget
    The fiscal year 2018 request focuses on: acquiring knowledge to 
better manage forests and expand markets for wood and biomass; high 
priority projects on State and Private Forests; active forest 
management, as well as building agency capacity for active management. 
To address these focus areas, the budget makes key investments in the 
following program areas:
  --Forest Inventory and Analysis ($77 million, an increase of $2.14 
        million from the fiscal year 2017 annualized Continuing 
        Resolution level)--to continue to implement the annualized 
        inventory program in all 50 States (including interior Alaska), 
        the affiliated Pacific islands, Puerto Rico, and the U.S. 
        Virgin Islands.
  --Forest Health Management ($90.390 million, a decrease of $9.021 
        million from the fiscal year 2017 annualized Continuing 
        Resolution level)--to continue to treat prioritized areas to 
        reduce the potential for new outbreaks; protect these areas 
        from damaging insects, diseases, and invasive plants; and 
        reduce the risks of undesired mortality from wildfire.
  --Forest Stewardship ($20.5 million, a net decrease of $2.492 million 
        from the fiscal year 2017 Annualized Continuing Resolution 
        level)--to provide assistance to private landowners seeking to 
        manage their forest lands. Better management of private lands 
        supports the maintenance of nearby national forest and 
        grasslands, and provides an economic contribution to local 
        economies.
  --Forest Products ($359.1 million, the same as the fiscal year 2017 
        Annualized Continuing Resolution level)--to sell 3.2 billion 
        board feet of timber and continue to build internal capacity in 
        our workforce.
  --Capital Improvement and Maintenance ($99.7 million, a decrease of 
        $263.8 million)--to maintain a workforce that will implement 
        critical infrastructure maintenance projects on National Forest 
        System lands and remain ready to implement additional 
        improvements that could be funded through the Administration's 
        infrastructure initiatives.
  --Hazardous Fuels ($354.3 million, a decrease of $20 million below 
        the fiscal year 2017 Annualized Continuing Resolution level)--
        As most hazardous fuels work takes place on NFS lands, the 
        agency will be able to administer this program more efficiently 
        and effectively if managed as part of the National Forest 
        System. With the funding, fuels treatments in the wildland/
        urban interface will reduce the risk of catastrophic fire on 
        1.7 million acres.
  --Preparedness ($1.34 billion, an increase of $259.1 million from the 
        fiscal year 2017 annualized Continuing Resolution level)--this 
        increase funds all base 8 costs with Preparedness. This is not 
        new funding, but was shifted from Suppression where a portion 
        of base 8 costs have been charged since 2004. The Forest 
        Service and the Department of the Interior are now using the 
        same business rules.
  --Suppression ($1.057 billion, an increase of $247.4 million from the 
        fiscal year 2017 annualized Continuing Resolution level)--this 
        amount fully funds the 10-year average costs for fire 
        suppression.
  --The budget for wildland fire management will fund up to 20 
        airtankers under exclusive use contracts. In 2018, these 
        contracts will be funded with both Preparedness and Suppression 
        funding.
  --The budget does not include a proposal for a fire funding fix, but 
        I look forward to working with the Department of the Interior, 
        Office of Management and Budget and you to develop a 
        responsible approach that addresses risk management, 
        performance accountability, cost containment, and the role of 
        State and local government partners in ensuring adequate funds 
        are available for wildfire suppression without undue disruption 
        to land management operations.
                         legislative proposals
    In connection with the fiscal year 2018 President's budget, we 
propose several key legislative changes to improve our effectiveness in 
delivering programs and services:
  --Federal Lands Recreation Enhancement Act. The 2018 budget proposes 
        general provision language for a 1 year reauthorization of the 
        Federal Lands Recreation Enhancement Act (FLREA) which is 
        currently scheduled to expire on September 30, 2018. The Forest 
        Service receives approximately $65 million annually in 
        recreation fee revenue. Ninety-five percent of the recreation 
        fees collected on a national forest stay at that national 
        forest to be reinvested in recreation sites and services. If 
        FLREA expires without reauthorization, the agencies will have 
        no recreation fee authority for operations and maintenance of 
        recreation facilities or for payment for the National 
        Recreation Reservation System.
  --Small Tracts Act Conveyance Authority. We propose increasing the 
        maximum value of the land that could be conveyed, from $150,000 
        to $500,000, to better align with current land values.
  --Extension of Grazing Permits. We propose that the terms and 
        conditions of section 325 of Public Law 108-108 (117 Stat. 
        1307), which regard grazing permits issued by the Forest 
        Service on any lands not subject to administration under 
        section 402 of the Federal Lands Policy and Management Act (43 
        U.S.C. 1752), shall remain in effect for fiscal year 2018. This 
        would address recent amendments to section 402 of the Federal 
        Land Policy and Management Act and public concerns that the 
        amendments do not apply to grazing permits issued by the Forest 
        Service on the national grasslands and on eastern national 
        forests.
  --Forest Service Facilities Realignment and Enhancement Act. We 
        propose a 1 year reauthorization of the Forest Service 
        Facilities Realignment and Enhancement Act of 2005 (FSREA). 
        FSFREA would allow the Secretary to convey administrative sites 
        that the Forest Service no longer needs, and retain the 
        proceeds from the sales for the acquisition, improvement, 
        maintenance, reconstruction, or construction of facilities. 
        Reauthorization would allow for better utilization of existing 
        resources, increase the agency's ability to address health and 
        safety issues, and enhanced service to the public.
  --Communications Site Program. The Forest Service seeks authority to 
        retain $4.5 million annually to better manage the growing use 
        of Forest Service lands for communications facilities. This 
        will result in an increased annual return on investment to the 
        Treasury within 2 years. This proposal will result in reduced 
        processing time for new applications to provide better customer 
        service (currently it takes 1 to 3 years to process a new 
        application); enhanced and expanded telecommunications provided 
        to rural communities via broadband, personal communications 
        systems, and emergency services; and increased safety of 
        visitors, agency staff, and first responders though additional 
        communications capacity.
    Our budget request focuses on sustaining jobs (especially in rural 
America), increasing economic contribution, sharing responsibility for 
the stewardship of our natural resources, and more effective and 
efficient delivery of products and services. Our requested budget will 
enable us to continue to make progress addressing the growing extent 
and magnitude of our management challenges on National Forest System 
lands. Through strategic partnerships, we can accomplish more work 
while also yielding more benefits for all Americans, for the sake of 
all generations to come. I look forward to working with this 
subcommittee to fulfill the President's goals and our key 
responsibilities for the long term benefit of Nation's forests and 
grasslands and all Americans. I will be glad to answer questions you 
may have at this time.

                           TONGASS INVENTORY

    Senator Murkowski. Thank you, Chief. I will begin with a 
question on where we are with the Tongass inventory. As you 
will recall, back in 2015, the TAC, the Tongass Advisory 
Committee, recommended that the Forest Service complete a 
comprehensive stand level inventory of young growth and old 
growth on the Tongass in order to determine the volume 
available and really to figure out how we can transition in a 
way that works, not only on paper, but on the ground.
    In July of 2015, the State and USDA entered into a $4 
million challenge cost share agreement to inventory a sample of 
young growth and old growth on Prince of Wales, $2.5 million to 
be used to improve forest resource inventory information and 
$1.5 million to support workforce development.
    It is my understanding that approximately 11,000 acres of 
young growth and 11,000 acres of old growth have been surveyed 
thus far. The next field season is now gearing up.
    I have made very clear throughout all these discussions 
that I believe very strongly that this inventory should have 
been done prior to the Tongass plan being locked in, but the 
question for you this morning is just an update on that.
    When do you expect the inventory sample to be completed? Do 
you have the resources that you need in this fiscal year 2018 
proposal to complete the inventory? Do you have any preliminary 
results as to that inventory at this point in time?
    Mr. Tidwell. Madam Chair, we are moving forward. This year, 
we are doing another 13,000 acres of inventory. Within our 
budget request, we will be able to continue to move forward 
with that in fiscal year 2018.
    At this time, I do not have any of those results, but I 
would be glad to get back to you on that to show you what we 
are learning as we move forward.
    [The information follows:]

    The Tongass Advisory Committee recommended the Forest Service 
``complete a thorough analysis of young growth inventory at the stand 
level in the first 3 years of the transition and to more accurately 
predict the young growth timing and supply to complete the 
transition.'' The stand-level inventory currently being conducted under 
the Challenge Cost Share agreement between the Forest Service and the 
State of Alaska includes both young growth and old growth. The 
information gained from this inventory, along with other existing 
information, is of sufficient scope and depth to plan project-level 
timber sales. We believe that the amount of data being collected during 
2016-2018 will be sufficient to complete a comprehensive inventory for 
the Tongass.
    Preliminary results of the inventory are not yet available. The 
focus of the fiscal year 2016 and fiscal year 2017 field seasons has 
been on the collection of the data (plots) as well as meeting the other 
deliverables in the agreement (workforce development and all lands/all 
hands southeast Alaska-wide engagement). The forest expects to post the 
raw survey data online soon. Verified stream data is critical in 
determining fall down acreages.

    Mr. Tidwell. Our commitment is to do 70,000 acres.
    Senator Murkowski. Do you still think that 70,000 is a 
reasonable sampling?
    Mr. Tidwell. I do. When I think about how many years of 
work it will take us to get through that 70,000 acres, and then 
also based on what we learned from the inventory that will also 
provide additional information as to if we need to be doing 
more, or even if we need to change how we are doing the 
inventory, if we need to adjust how many plots we are putting 
out there, et cetera.
    It is an ongoing process. We will be glad to share the 
information not only with you but with everyone, with the 
members of the public, so they can see what we are learning as 
we move forward with this transition.
    Senator Murkowski. I think that would be helpful in terms 
of sharing the information, but also making sure that as we are 
moving forward, again, the resources are there to allow for the 
level of inventory that we are all talking about.
    Do you have any sense as to how much additional funding the 
Forest Service will need to complete the full inventory? Do you 
have any lead on that?
    Mr. Tidwell. From the work that we are doing and now that 
we have the staff trained up and working through the challenge 
cost share with the State, I feel comfortable that we have 
adequate funding to move forward and be able to complete this 
work.
    Senator Murkowski. Well, that is in fiscal year 2018, you 
have what you need to get to the 70,000, but I am talking about 
a complete inventory, not just our sample here.
    Mr. Tidwell. Well, based on what we learn from the 70,000 
acres, that is what will determine what additional inventory we 
need to do as we move forward, but it is going to be part of 
our ongoing work, but at the same time to also be able to focus 
on actually getting some projects implemented.
    That is also part of the learning that needs to occur, not 
only with the inventory but as we move forward with various 
projects, that we can be working with the industry to be able 
to find the right package, the right economic package, that 
makes this economically viable so we can sustain our 
communities.
    It is going to be an ongoing process, not only with the 
inventory, but also from as we implement projects what we can 
learn.
    I want to share with you that one of the big projects this 
year is being done by the States through the Good Neighborhood 
Authority. We are actually having State personnel out there 
doing sales prep for that project.

                              TIMBER SALES

    Senator Murkowski. Let me ask you about the sales prep. You 
know that we continue to receive complaints from the industry 
that for a variety of reasons, the Forest Service is having 
trouble laying out and offering timber sales that result in a 
profit, and this whole issue of the appraisal process itself.
    What are you doing to improve that sales planning and to 
solve the appraisal issues that we are dealing with?
    Mr. Tidwell. Well, there are two things. One, we are 
reviewing our appraisal process, and not only in Alaska but 
throughout the country, so that we can do a better job to make 
sure we are getting the work done.
    The second thing is that through the Good Neighborhood 
Authority, by being able to use State personnel and being able 
to use State practices, it gives us an opportunity to also 
learn that through some of the State approaches, if that may be 
a better way for us to be able to move forward.
    So, those are the two things that are ongoing. I am 
optimistic that as we move forward that we can make the 
adjustments in our appraisal system so that we are able to get 
more projects done.
    Last year, we had 500 million board feet of no-bid sales 
across the country, including some in Alaska. A lot of that is 
just driven by current markets. Our job is to get the work done 
regardless of what the markets are. Part of that is to be able 
to make the right adjustments in our appraisal system so we can 
actually make it economically viable for folks who do the work.
    Senator Murkowski. As we have had this conversation before, 
this is key in terms of those issues that just drive folks 
nutso. It is what is happening with the appraisal process here. 
Let's be working on that one.
    My time has expired. I will turn to Senator Udall.
    Senator Udall. Senator Tester has a pressing engagement.
    Senator Tester. Thank you, Madam Chairwoman. I want to 
thank the Ranking Member very much. Chief Tidwell, it is good 
to have you here. We have been in this position many, many 
times before.
    I know quite frankly the administration and Congress puts 
restrictions on you on dollars that certainly you have to work 
under, and certainly puts you in a bad position, and I can tell 
you often times we come in here and we blame you for our 
actions, and I just want to say thank you for your service, 
thank you for what you are doing. You are a career man, and I 
certainly appreciate your commitment to the Forest Service and 
the job you have done.

                             TIMBER TARGETS

    That being said, I would be less than honest with you if I 
did not tell you that this budget was a wreck. I will tell you 
why. Forest fighting costs since 1995, they were 16 percent. 
You know these figures. Today, they are 52 percent. They will 
be 67 percent in another 8 years if we do not do something.
    The share of the Forest Service budget for fighting fires, 
as the Ranking Member pointed out, continues to increase, and 
as it continues to increase, are you going to be able in fact 
to meet those timber harvest targets, and we have to be honest 
with ourselves. If you are spending money for fighting fires, 
that is less money you spend for doing management. Can you meet 
those targets?
    Mr. Tidwell. Senator, from what we see this year and the 
work that we are doing planning for next year, I am optimistic 
that we can meet that target. We have actually increased it 
from 3.2 to 3.4 based on the additional funding that you 
provided in fiscal year 2017 for us to actually be able to get 
some additional planning done.
    Our folks work very hard on it, but we also want to be very 
straight, and we do not try to stretch, but I am confident we 
will be able to reach that target.

                      OUTFITTERS AND GUIDE PERMITS

    Senator Tester. The outdoor industry in Montana, because we 
have 10 national forests in our State, amounts to a good chunk 
of our economy, $6.4 billion, 64,000 jobs. A lot of that has to 
do with guides and outfitters. Are they going to be able to get 
their permits in a timely manner under this budget?
    Mr. Tidwell. It will be more challenging, but the changes 
that we are making in our dealing with special use permits, 
including outfitter and guide permits, we are finding new 
efficiencies, so that we can make sure we are working closely 
with our outfitters and guides, and all of our special use 
permittees to be able to make sure they can go to work.

                          INFRASTRUCTURE PLAN

    Senator Tester. As the Ranking Member pointed out, when it 
comes to infrastructure, there is an 84 percent cut, and 
correct me if it is wrong, for roads, trails, and facilities. 
One of the things my office hears a lot on is trail 
maintenance. I think we had a scrap last year on the cuts and 
you fixed it. Thank you.
    Are we going to be able to have proper maintenance for 
trails, for access to our national forests under this budget?
    Mr. Tidwell. Under this budget request, we are going to 
focus on ensuring we maintain our staff and expertise so that 
when the infrastructure plan moves forward, we will be well 
positioned to be able to implement projects, not only those 
roads that are not only essential for access for our timber 
work, but also it is essential for our recreating public, as 
you just mentioned.
    That is how we are moving forward with it. We are going to 
focus on maintaining our staff and expertise so we are well 
positioned to be ready to respond to an infrastructure plan.

         FIRE FIGHTING AND THE FISCAL YEAR 2018 BUDGET REQUEST

    Senator Tester. There is debate on this subcommittee and 
there is debate in Congress whether we ought to treat wildfires 
as a natural disaster. I think we should. I think we ought to 
just admit that the fire seasons are getting more intense. They 
are getting longer.
    If we can free up dollars for you to do the work you need 
to do in the Forest Service, long term, not in the short term, 
not in the next couple of years but in the next 10 years, I 
think the fire risk could potentially go down.
    So, that has an impact on your budget. I can tell you that 
the Land and Water Conservation Fund being zeroed out, the 
CFLRs being zeroed out, infrastructure being cut by 84 percent, 
I am going to tell you there is a move in this country to sell 
our public lands, to privatize our public lands.
    My concern with this budget, as we do not have access to 
trails, as the roads are not being done, as the facilities are 
not being kept up, as the trees are not being managed in a way 
that makes sense for next generation, it just gives more 
ammunition to those short-sighted people out there that want to 
turn our land over to the private sector. They want to sell it 
and do away with our $6.4 billion recreation economy in the 
State of Montana, and make Montana and a lot of other States 
into a different place.
    As we go forth with this budget, I hope you keep that in 
mind, as I started out, we put restrictions on you, you have to 
live within the restrictions, and then we complain to you when 
we do not have trails opened up because we do not have enough 
money for them.
    Keep that in mind, and I would just hope that when you come 
to subcommittees like ours, and I know it is tough to speak 
truth to power, but you need to tell us this is not working. 
You need to tell us I do not have the money for road 
maintenance because we are spending it all on fighting fires. 
We know it. We smell the smoke every year in Montana.
    We also blame litigants out there for stopping the forest 
cuts, and part of that is for people who do not want to see a 
tree cut, but another part of it is you do not have the 
resources you need to do the management practice ahead of time 
to make sure the cuts are straight up.
    Mr. Tidwell. Senator, I appreciate your understanding the 
importance of our public lands and our national forests to 
Americans. There is one reason we have national forests in this 
country, and it is simply that the people want them.
    Our job is to be able to work with our communities, to be 
able to manage it in a way that meets their needs and desires.
    I will point out again that the sooner we can find a fix to 
dealing with the fire funding is the sooner you have more 
flexibility to be able to provide funding to address the needs 
of our constituents.
    Senator Tester. Thank you for your service, Chief, and 
thank you, Ranking Member and Chairwoman.
    Senator Murkowski. Thank you, Senator Tester. Senator 
Daines.

                    FISCAL YEAR 2018 BUDGET REQUEST

    Senator Daines. Thank you, Senator Murkowski, Ranking 
Member Udall. Chief Tidwell, good to see you again. I was very 
pleased to have Secretary Sonny Perdue, our new Ag Secretary, 
and again Ag and Forestry Secretary, out in Montana.
    We had a summit there. They had huge attendance. Forest 
management reform was also an important part of that 
conversation because timber is a renewable resource. It is 
actually a crop; it just takes longer to grow it. Very pleased 
to have Sonny Perdue out.
    We had a roundtable with some of our folks from the wood 
products industry. Once again, we are hearing the dismal state 
that the industry is in. They are running single shift. We are 
down to just eight now active mills on Montana, 30 when I was a 
kid growing up, now down to eight. They are down to single 
shift.
    The left would tell you that the reason it is single shift 
is because there is no demand. That is absolutely false. The 
reason we are at single shift is we cannot get enough logs. We 
are bringing logs in from Canada, bringing logs in from 
hundreds of miles away from other States to try to keep our 
mills afloat right now.
    In fact, they told me--we had press there. I said report 
the truth. The press heard that demand has never been stronger 
for our products, but we cannot get logs to the mills.
    It is a sad, sad state of affairs, and it is because of 
these extreme environmental groups who are litigating many of 
our sales that we have right now in Montana, and we are not 
taking care of the forest, and then we see them burn, and we 
can reduce the wildfire risk as we know by actively managing 
our forests.
    I will tell you this. There is new optimism amongst the 
folks back in Montana if they heard Secretary Perdue talk about 
how he was going to engage and work on policies going forward, 
it is the first time they have been optimistic in a long time. 
I was grateful to have Sonny out in Montana.
    I also want to echo your call for wildfire funding reform. 
It is crucial that Congress gets this done. I want to voice my 
concern with the budget proposed cuts that are to recreation 
and road development, the latter of which are important to 
carrying out forest projects. Both proposals are harmful to 
Montana's national forests and our way of life.

           COTTONWOOD ENVIRONMENTAL LAW CENTER/LYNX AMENDMENT

    Chief Tidwell, Senator Tester and I have introduced 
legislation to statutorily reverse the disastrous Ninth Circuit 
Court decision in the Cottonwood Environmental Law Center 
versus U.S. Forest Service.
    According to the Obama administration, this decision has 
the potential to cripple Federal land management across Ninth 
Circuit States. Citing the Cottonwood decision, courts have 
already halted four forest health projects in Montana.
    Does the Forest Service support the bipartisan efforts to 
statutorily reverse this decision?
    Mr. Tidwell. Senator, first of all, thank you for your 
work, your bipartisan work with Senator Tester to introduce 
that legislation. Yes, we support that, and we need your help 
on this.
    It would be one thing if we just needed to reinitiate 
consultation. We would be glad to be able to do that. Our 
employees are working through that now. The way this court 
decision came down, it creates a continuous procedural loop, so 
we are never done. Even when we do say the Lynx Amendment and 
we consult on that, it is not considered completed.
    Any time there is new information, and there is constantly 
new information, it can even be like a Master's thesis, maybe 
not even peer reviewed, that is new information. That could 
create a need to reinitiate consultation.
    So, we want to consult, of course, and we want to do what 
we need to to be able to provide for Lynx habitat, and work 
very closely with Fish and Wildlife Service, which we are.
    This is just one of those cases--I need to really stress 
this goes way beyond Lynx. It goes way beyond the State of 
Montana. Fifty-two percent of the National Forest System land 
is in the Ninth Circuit. We had a different ruling out of the 
Tenth Circuit.
    This is one where we need your help to be able to resolve 
this so that we can do our job to consult, take care of 
habitat, but at the same time, be able to do the work.
    Senator Daines. Thank you. I just will be pleased with our 
Chair and my fellow Senators to join Senator Tester and myself 
on this piece of legislation. It is bipartisan already. The 
Obama administration was with us on this. The Forest Service 
clearly has both feet planted to help us on this, and we need 
to get this done. There is a statutory remedy that will solve 
this specific problem with Cottonwood, and we need to get this 
moved across the finish line here in the U.S. Senate. Thank you 
for your support.

                          SECURE RURAL SCHOOLS

    Chief Tidwell, I want to shift to Secure Rural Schools. I 
am a co-sponsor of legislation to reauthorize the SRS Program. 
It remains critical to our timber counties in Montana. Just 
last week in these roundtables we had, we had county 
commissioners from counties in Montana that had 90 to 92 
percent of their acreage in their counties that are Federal 
lands.
    The SRS is critical there, of course, because the Federal 
Government does not pay taxes. I hear over and over again that 
we need to extend SRS, and they want Congress to pass strong 
reforms additionally to restore active management to the 
national forests.
    They all rely now on PILT and SRS. They would much rather 
be seeing the revenues coming off our national forests because 
we are actively managing them than having to be dependent on 
PILT and SRS. Having said that, it is the state of affairs that 
we live in today, and we need to reauthorize these programs 
when we simply must address this litigation issue in Montana.
    It is a missed opportunity, and I hope we can bring 
together maybe an SRS long term funding proposal in conjunction 
with long term litigation reforms, where we really start 
solving the problem and what created SRS and PILT in the first 
place.
    The President's budget does not mention SRS. Does the 
administration support reauthorizing this program, and do you 
believe increasing pace and scale management must be a priority 
in addition to this program?
    Mr. Tidwell. Well, first of all, I have been up here every 
year talking about the need to increase the pace and scale of 
restoration to be able to maintain and restore our Nation's 
forests. There is no question we need to do that part.
    I want to work with you to find ways to also provide some 
certainty for counties. There is always going to be fluctuation 
in markets. There is always going to be fluctuations in the 
amount of revenue that is generated on any year. That is very 
challenging for counties to be able to budget that way.
    We need to first continue our work to be able to increase 
managing our national forests, but at the same time I want to 
work with you to find a solution that provides some certainty 
for the counties.
    Senator Daines. Thank you, Chief.
    Senator Murkowski. Thank you, Senator Daines. Senator 
Udall.

                        QUESTIONS FOR THE RECORD

    Senator Udall. Before we get into the budget, I would like 
to confirm, Chief Tidwell, that you will continue the long-
standing practice of responding to the written questions and 
correspondence from both Majority and Minority Members of this 
subcommittee as quickly as possible.
    Mr. Tidwell. Yes.

                              FIRE FUNDING

    Senator Udall. Great. Thank you. Chief, as I mentioned in 
my opening statement, I am incredibly concerned by this 
budget's failure to adequately fund firefighting.
    It is no secret of the historic method used to budget for 
wildland firefighting. The rolling average of firefighting 
costs is not enough to fully fund actual firefighting needs in 
the most fiscal years and frequently leads to the agencies 
running out of funds and being forced to borrow from other 
programs.
    Yet, your budget fails to request any funding to supplement 
the 10-year average and fails to offer a legislative proposal 
to address the long-term challenges of the fire suppression 
budget.
    Chief, since you know the 10-year average does not cover 
actual firefighting costs most years; can you explain why you 
chose not to request the actual forecasted need? Can we expect 
the administration to support emergency supplemental funding if 
the amounts proposed in the budget prove insufficient to cover 
actual firefighting expenses?
    What is the administration's plan to propose a solution to 
address fire borrowing and the adequacy of the 10-year average? 
Is the disaster cap adjustment proposed by President Obama a 
non-starter for this administration?
    Mr. Tidwell. Senator, first of all, I think everything 
needs to stay on the table as far as all options to be able to 
resolve this. You all have worked so hard over the last few 
years to find a solution to it. I recognize how challenging 
that is. I think all solutions need to stay on the table.
    With our budget request, it does follow the agreement to 
fund the 10-year average, but it also, I believe, provides the 
emphasis that we need to find a solution, and once and for all 
to be able to find a way to be able to cover that.
    It is really now 1 percent of fires that contribute often 
to 20 to 30 percent of our costs. We can easily handle the 98 
to 99 percent of all fires we respond to within a budget.
    It is really impossible for us to forecast what we need in 
fiscal year 2018. I can tell you today, in fiscal year 2017, we 
are somewhere between $1.1 billion to $2 billion. I am 90 
percent confident that is where we will end up this year.
    When you think about next year, with our scientists, what 
they have come up with is a range of $442 million to $1.5 
billion. How do you budget for something like that? Even today, 
here it is June, and we still have almost $1 billion range.
    That is why I think it is essential that if there is 
anything you need, additional information that you need from us 
to be able to help you, but we stand committed to finding a 
solution for this once and for all.
    It goes back to the point that has been raised; over 50 
percent of our budget now is in our fire programs. Earlier in 
my career, back in 1998, it was 16 percent, and yes, we 
forecast it to go to 67 percent by 2025.
    We need to find a solution so that we can be able to 
maintain a program of work that over time we can not only 
reduce the threat to our communities but we do see a severity 
of wildfire on the landscape.
    We have the science. We know what we need to do. It is just 
getting more of that work done, and as long as every year you 
have to put more and more money into dealing with fire 
suppression, it just limits your flexibility to provide for the 
public needs out there.
    Senator Udall. Chief, really, what you are saying is if you 
took those larger fires, that two percent, and you treated them 
like natural disasters, that would really stabilize the budget 
situation?
    Mr. Tidwell. It would. Once again, within the appropriated 
funds, the 10-year average, we can easily handle that 98 
percent of our fires. It is just that 1 to 2 percent, and I 
would be glad to provide the list from last year, but I know 
even the top 10 fires that occurred last year, I think, were 
close to almost $300 million, just with 10 fires. We have 7,000 
fires every year on the national forests.

                  VALUING PEOPLE AND PLACES INITIATIVE

    Senator Udall. Chief, I understand you have launched a 
pilot program called ``Valuing People and Places,'' and that 
you have been doing work on that in New Mexico. How are you 
engaging these unique community groups through your Valuing 
People and Places initiative?
    What have you learned from this and other outreach to 
Tribes, land grants, and acequia, and how can we work together 
to better incorporate the needs of these communities into the 
Forest Service planning process? Do you plan to expand the 
initiative in this new administration?
    Mr. Tidwell. That effort was a program we put into place to 
require our employees to sit down with the various communities, 
and not to come there with a proposal or with an agenda, but to 
actually come in there and listen, to hear from them so that we 
could create a greater understanding of their concerns, their 
values, so that we could do a better job to be able to meet 
their needs.
    Those are the things that have come out of this, and it is 
somewhat unique because normally when we pull people together, 
we ask them to come there, we will have a proposal we want them 
to respond to. This effort was focused just on one thing, and 
that is just to increase our understanding of the importance of 
their values, their concerns, so that we could factor that into 
our management.
    So, this has been an ongoing program. There has actually 
been a lot of good success. This occurred in your State. I have 
heard it directly from our employees the things they have 
learned. Also, how just the communities appreciated it, for us 
just to show up there without an agenda, with one purpose, to 
listen.
    Senator Udall. I have heard the same thing, and very much 
appreciate your effort on this. Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall. Senator 
Capito.
    Senator Capito. Thank you, Madam Chair, Ranking Member. I 
am pleased to be on the subcommittee this year, so thank you 
very much.

                      PIPELINE PERMITTING PROCESS

    Welcome, Chief Tidwell. I am very happy to hear what you 
are saying. I wanted to go into sort of a different topic. 
During the last Congress, I introduced some legislation that 
was included in our Senate passed energy bill, thanks to 
Senator Murkowski's leadership, that would improve the 
permitting process for interstate natural gas pipelines.
    I am not interested in skipping any of the permitting 
processes. I am interested in more efficient considerations so 
that we can make decisions more quickly that are of national 
interest.
    It is important to a State like West Virginia; we have 
these new proven very large deposits of natural gas reserves in 
the Marcellus and Utica shale place, so we are excited about 
that.
    In West Virginia and elsewhere, the Forest Service is 
frequently a cooperating agency on projects on which FERC is 
the lead agency. Can you explain the priority that the Forest 
Service puts on making sure it efficiently exercises its roles 
in these energy projects, and any other things you might want 
to comment on in terms of the pipeline permitting process?
    Mr. Tidwell. We take our role very seriously, that we want 
to work closely with the Federal Energy Regulatory Commission 
(FERC), so that we are never the impediment or the agency that 
slows down the process. By working closely to raise concerns 
that we may have, to also identify if we need to be able to 
make an amendment to forest plans and to be able to approve the 
construction of the pipeline.
    We work upfront on that, and we work very closely with the 
process. Are there things we need to continue to learn on this? 
Yes. We have a couple of projects actually in your State now we 
are working through. We are learning how we can improve our 
process so that we are more in sync, so that we can get all of 
the work done so that when FERC makes their decision, we can 
quickly follow up with our decisions and the pipelines can be 
built.
    Senator Capito. Right. We have the Atlantic Coast Pipeline 
and we also have the Mountain Valley Pipeline. As we all know, 
these can be quite controversial. At the same time, I think 
they are very achievable, and some of it is just kind of foot 
dragging or it seems the process becomes very, very slow, after 
a lot of input from locals.
    I guess with the FAST Act, there is a FAST-41 list of major 
infrastructure projects. Do you look to that when you are 
looking at this, or do you let FERC be sort of your guideline 
on all of this?
    Mr. Tidwell. We do both. We track the FAST-41 list very 
closely. Also, even with projects that are not on that list, we 
want to be responsive, but definitely that list has priority.

                            RURAL BROADBAND

    Senator Capito. Yes, good. In your statement, you did not 
mention this in your comments, but I was reading through your 
statement, very interested in rural broadband and the 
deployment of rural broadband. Most of us have big rural areas, 
and this is a huge issue for all of us.
    I noticed in your last bullet point, you talk about seeking 
several millions of dollars to manage the growing use of Forest 
Service lands for communications facilities. Is that an 
interagency communications build out you are doing? Are you 
working with communities that are in these rural areas? What 
kind of technologies are you using? I am very interested in 
this aspect of your responsibilities.
    Mr. Tidwell. So, our proposal is to be able to retain the 
fees from these communications sites so that we could actually 
do a better job, to be more responsive, to quickly turn around 
the applications, and to be able to permit the additional 
facilities that need to be built.
    As you can imagine, especially in your State, those 
mountain tops are very valuable when you are dealing with every 
type of communication, and not only for emergency but just 
everything down to cell towers.
    We believe that within 2 years, by retaining those fees, we 
will more than recover that additional revenue back to the 
Treasury. That is the magnitude of the work that needs to be 
done. We also have a lot of sites that not everything is 
currently under permit, and not every permit is up to date.
    It will really allow us to be more responsive because it is 
just essential that we provide those communications, not only 
the emergency, but just everything that is needed just for 
commerce in this country.
    Senator Capito. So, this is a public/private kind of 
partnership thing, it is not just within the Forest Service 
itself?
    Mr. Tidwell. Yes. We issue the permits, and the 
authorization for private companies to build their towers and 
to put their communications lines in.
    They need that high ground, especially, but they also need 
access for cabling and that sort of thing.
    Senator Capito. Do you have a backlog? Is that the issue, 
that you do not have enough manpower at this point and funding 
to move these through as quickly as you would like?
    Mr. Tidwell. Yes, exactly, that is the problem. We receive 
over 6,000 special use applications every year, which goes 
beyond just communications sites. Our employees work very hard 
to be able to respond to the applications, but through this 
legislative proposal, we would be able to increase our 
staffing, and also work with contractors. We could be much more 
responsive.
    I would think the industry would see a significant 
improvement with how quickly their applications can be 
approved.
    Senator Capito. That is something I think I certainly would 
be supportive of, and I think you would find a lot of support 
here to help manage that. Not only are you going through the 
forest, but there is always something on the other side, you 
know, private landowner businesses or whatever, schools, to be 
able to make that connection.
    That is important to those of us in rural America who are 
still on the short end of the high speed Internet and other 
kinds of communications.
    Thank you very much.
    Mr. Tidwell. Thank you.
    Senator Murkowski. Thank you, Senator Capito. Senator 
Merkley.

                          SECURE RURAL SCHOOLS

    Senator Merkley. Thank you, Madam Chair, and thank you, 
Chief. I want to echo Senator Daines' comments on secure rural 
schools. There is a piece of that, title III, that people were 
kind of caught in an awkward place by a GAO report in 2012, 
which essentially said the funding for search and rescue has to 
be spent on the actual search and rescue as opposed to 
preparing for the search and rescue.
    Can you work with us to try to remedy and clarify that so 
folks can actually get the equipment they need for the search 
and rescue, and not have these funds stranded?
    Mr. Tidwell. Senator, we would be glad to work with you on 
improving the search and rescue. The intent was to be able to 
provide the funding for all aspects of the search and rescue, 
but it is one of the things we all learned through implementing 
that.
    Senator Merkley. Thank you. I would appreciate your support 
on that, and again, I certainly hope we can support the 
continuation of the SRS Program.

                          INFRASTRUCTURE PLAN

    Our outdoor recreation economy in Oregon is a very big 
deal, and there is a lot of concern about this massive cut in 
capital improvement and maintenance, from $364 million to just 
$100 million in the President's budget.
    I think what I heard you say earlier was well, we will wait 
for the infrastructure budget to be able to get funding to do 
the basic capital maintenance. Did I understand that correctly?
    Mr. Tidwell. Yes. We are going to focus on maintaining our 
staff and expertise so we are well positioned to respond to an 
infrastructure plan.
    Senator Merkley. Well, I encourage an alternative strategy, 
which is that we actually fund capital improvement and 
maintenance because we do not know what the infrastructure bill 
will look like. The President has talked a lot about public/
private partnerships in terms of toll roads. Out West, we call 
them ``freeways,'' rather than calling them ``tollways.''
    Really, it is just an ongoing part of making sure that the 
assets that we have are available and in good shape for the 
public. It should not depend upon a once in a decade 
infrastructure bill. I just want to encourage that.

                            SUDDEN OAK DEATH

    We have a big problem in Oregon called ``sudden oak 
death.'' California has it as well. It is a water mold that 
affects a lot of nursery plants, but there is a version of it, 
a North American or NA1 version and a European EU1 version. The 
EU1 version can affect connivers.
    I come from Douglas County which is perhaps maybe grows 
connivers better and faster than any county in the country. We 
are very concerned about this. Can we work with you to find a 
way to find some piece of the programs that we are funding, 
some funds to try to address both the research of taking this 
on and the treatment?
    Mr. Tidwell. Senator, we want to work on that issue along 
with all the other insect and disease and invasive plants that 
are impacting the Nation's forests. As you mentioned, one has a 
significant impact on your part of the country and has the 
potential to spread.
    Those are the things that our research and scientists are 
focused on, to find solutions to be able to address this. We 
will continue to do our work there.
    We have a long list of these issues that we are dealing 
with across the country that we want to make sure that we can 
maintain our progress in finding solutions.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Senator Merkley. Thank you. I would appreciate your help on 
that. The threat to both the timber industry and the nursery 
stock industry is massive. We should be trying to wipe it out 
right now rather than risking it spreading across the Nation.
    I want to turn to the Collaborative Forest Landscape 
Restoration Program. We have three of these collaboratives that 
are producing, if you will, a ``truce,'' or a collaboration 
between the environmental side and the timber side, making 
forests healthier while at the same time producing a steady 
supply of saw logs for our mills.
    This program is zeroed out in the President's budget, which 
was quite a shock. We have such division, that when we have a 
successful program of bringing two sides together and staying 
out of the courts, producing jobs and producing healthier 
forests, is that not the type of win-win we should actually be 
doubling down on in this contentious world?
    Mr. Tidwell. The CFLRP projects, as you mentioned, have 
proven to be very successful. This long-term commitment of 
funding for large landscapes at a minimum of 50,000 acres has 
produced that collaborative environment, where people have come 
together and are able to get a lot more work done.
    However, we can continue to do that without the specific 
funding for this program. It is actually the way we should be 
working across the landscape. The challenge we have moving 
forward is these 23 projects that we have had have been very 
successful, and they will now compete along with the rest of 
our projects to be able to have this funding.
    This concept of being able to focus on large landscapes is 
the way that we need to be doing our work. We can continue to 
still address that without having specific funding for the 
program.
    Senator Merkley. My concern is in being in competition with 
a diminishing supply of resources, these programs will be 
damaged. I am hoping we cannot damage a model that really lays 
out a vision for solving a paralysis that has affected so much 
of our public lands.
    I want to turn to the wildfire reform and echo the comments 
of my colleagues who have stressed the need for us to adopt a 
different model. I had not heard the kind of 2 percent strategy 
that you mentioned. Certainly, an interesting way of looking at 
it, budgeting some and having more of a FEMA style response to 
the few really large fires. Any direction we could move on that 
would be great.

                           FIREFIGHTING CREWS

    Last question. When we hire crews--again, coming from 
Douglas County where people are intimately connected to the 
timber economy, we were very disturbed when we got a lot of 
funding for forest restoration, and there was some in the 
stimulus, we have some in our annual budgets, that crews were 
getting the low bid contracts from the Forest Service because 
they were hiring from out of the country, bringing in H-2B 
crews, when there were thousands of Oregonians who wanted these 
jobs, but they were self-certifying that there was no one 
available, a complete fabrication.
    The Forest Service was giving these contracts to the low-
priced bids with out of country crews because they were less 
expensive. Can you work with us to make sure that when 
Americans want these jobs in the woods, they get full notice 
and opportunity to apply, and the Forest Service just does not 
blindly hire and fund teams that are hiring from outside the 
country?
    Mr. Tidwell. Yes, Senator, you have my commitment to work 
on that. I will look into this issue. As I understand, that is 
a requirement, if there are individuals, local Americans, that 
are willing to do the work, they do the work.
    Senator Merkley. That is a requirement, but it is a self-
certification that there is no one available, and it is being 
wildly abused. I would like your help in taking that on. Thank 
you.
    Senator Murkowski. Senator Merkley that is a very 
interesting issue. I was not aware there was this process where 
those outside the country, those with H-2Bs, could come in and 
effectively be the fire crews. We have some hot shot crews out 
of our villages, and these villagers, for them, this is their 
job as much as anything in terms of a yearlong source of 
income.
    We have some issues where they say they have not met all 
the criteria, whether it is a Type 1, Type 2, but if we are 
utilizing those with H-2Bs rather than our local crews that 
have clearly developed a level of expertise, that is something 
I certainly am interested in as well. I appreciate your raising 
that.
    Senator Merkley. I might say I have seen less evidence of 
this on the fire crews than on the forest health crews.
    Senator Murkowski. We will look into that. Chief, I 
appreciated the conversation you had with the issue raised by 
Senator Capito about the telecom opportunities and the role 
that the Forest Service can play in helping to facilitate 
better connectivity.
    As you know, in my State, we have a lot of dead zones that 
are out there, and certainly as you and I flew over the Tongass 
a couple of years back, you can look down and see.
    It was interesting, your comments, about needing access for 
more cabling, access for installation of the cell towers or the 
receiving towers. It just kind of caused me to wonder what the 
impact is to an area like the Tongass, where we have the 
roadless rule in place, where once again, we do not have the 
ability to have a road, to either do the install or the 
maintenance, so whether it is limiting our opportunities to 
build out renewable energy resources within the Tongass area or 
communications kind of activities, the roadless rule is, as you 
know, just an extraordinary barrier to us in so many different 
ways, and exactly the reason why we need to roll that back 
within Alaska.

                ALASKA MENTAL HEALTH TRUST LAND EXCHANGE

    I want to raise a couple of more Alaska specific issues 
with you. You know we just signed into law the Alaska Mental 
Health Trust Land Exchange. That was part of the omnibus this 
past year. I want to thank the Forest Service for working with 
us to make sure that did become law.
    Now, we have to implement it. The law requires that the 
Forest Service complete the exchange of the first 2,400 areas 
within 1 year, by May 5, 2018, and then it has another year to 
complete the exchange.
    What is happening now is the Forest Service and the Trust 
have to select an appraiser and issue appraisal instructions 
within 90 days of passage, by August 4.
    So, the question this morning is whether or not the Forest 
Service is going to be able to meet these time lines, select 
the appraiser, so that they can get out in the field this 
summer, and second to that, whether or not the Forest Service 
has the financial resources to complete this land exchange as 
required by law.
    Mr. Tidwell. Madam Chair, we are on track to get the 
appraisals, the appraiser identified, and get that work done, 
and we are on track to complete the first phase this year. I 
want to first of all thank you for giving us this authority, 
and we are making a commitment to whatever resources are 
necessary.
    I want to use this as a model about how to do land 
exchanges, especially when we are working between a State and 
say the Forest Service. I think we can show that when we are 
dealing with a State agency and the Forest Service, we can have 
a more expedited process that still meets all the concerns of 
the communities and at the same time meets all of our 
requirements, but do it in a much more shortened timeframe.
    Senator Murkowski. If we had waited for the administrative 
solution, we would be waiting a long while here. We would 
appreciate the cooperation there. Do you have the resources 
that you need to do this?
    Mr. Tidwell. We do.

                            LAND ACQUISITION

    Senator Murkowski. Okay. Let me ask about Shee Atika and 
the Cube Cove land acquisitions. In the fiscal year 2018 
budget, I see no money proposed for new land acquisitions, only 
$8.4 million to complete land acquisitions in process.
    As you know, with the Shee Atika, we are in that process of 
kind of completing this. I am told hopefully we are going be 
able to finish the acquisition of another 6,000 acres, but it 
does mean the Forest Service has about another seven tracts 
covering about 9,100 acres, costing another $9 million to 
complete the agreement.
    I am wondering if the purchase of the last seven tracts 
here that the Forest Service committed to back in 2015 is 
considered completion of land acquisitions in process, or are 
these considered new acquisitions that are not eligible for 
funding under the current terms of the fiscal year 2018 
proposal.
    Mr. Tidwell. Madam Chair, we are on track to complete the 
next part of the purchases this year, but following that, to be 
able to finish this acquisition, it will have to be postponed 
until some time in the future when there is additional funding.
    Senator Murkowski. So, why would these not be considered 
land acquisitions in process, since it is effectively the plan 
that was laid down back in 2015? These are not anything new, it 
is just there is a multi-year process for completion.
    Why are you considering them new acquisitions, thus, 
subject to this fiscal year 2018 proposal that says no new 
acquisitions?
    Mr. Tidwell. They are not new, it is just no funding 
available. The limited funds that we have in our fiscal year 
2018 budget request would be to be able to finish up all the 
work that we have implemented with the current funds.
    So, there is not a new project, it is just there would not 
be any funding available to complete the rest of it.
    Senator Murkowski. If it is not a new project and you 
recognize it as something that has been committed to, how can 
we prioritize this so that we complete this land acquisition as 
was laid out over 2 years ago now?
    Mr. Tidwell. Well, we have the list of land acquisitions 
that we provided in the fiscal year 2017 budget request. That 
is our priority list, which includes completing the next two 
phases of Cube Cove, and we will finish that work, but without 
additional funding in fiscal year 2018, the rest of it will 
have to be put on hold.
    Senator Murkowski. Right. You can see my concern here. We 
have an administration that has basically said no money for new 
land acquisitions, and we are saying this is not a new land 
acquisition, this is something that was agreed to some time 
ago, we need to complete it. I do not want us to be in this 
category of nothing will be allowed because we have a view 
within the administration that we are just not going to have 
new acquisitions coming forward.
    I am going to continue to press on this and ensure that the 
Forest Service keeps the commitment that was made some time 
ago.
    Senator Udall.

                      FEDERALLY RECOGNIZED TRIBES

    Senator Udall. Thank you, Madam Chair. Chief, building on 
the previous line of questioning around unique local community 
associations, another area that can always be improved is 
meaningful government-to-government consultation, with the 23 
federally recognized Tribes in the State of New Mexico.
    I have heard from Tribes that it seems like the Forest 
Service does not understand why Tribes may want to protect 
information from the public, like the location of their 
cultural resources and sites, or understand how Tribal 
consultation is different from engagement with other 
stakeholders.
    As you know, federally recognized Tribes are not simply 
stakeholders, they are sovereign governments. What are you 
doing to better inform all Forest Service employees about the 
best practices for engagement with Tribal partners in 
developing management plans that reflect meaningful 
consideration of Tribal input? How is the Forest Service 
working to consult with Tribes in a meaningful way and respect 
their wishes?
    Are there other resources the Forest Service needs in order 
to fully comply and carry out government-to-government 
consultation?
    Mr. Tidwell. Well, Senator, we have always understood the 
importance of our consultation with our Tribes, and one of the 
things that came out of our Sacred Sites Report that was 
completed a few years ago was a need for us to provide 
additional training.
    We have actually put together some training tools to be 
able to share what we have learned, as we sat down with the 
Tribes across this country, so we could do a better job with 
consultation.
    We are going to continue to implement that training, to 
ensure that our employees understand the significance and 
importance, and also how to do this; to be able to show that 
respect as we do our consultation, and to also understand why 
at times it is probably not going to be shared exactly where 
these places are, where these sites are, because of the concern 
of the Tribes.
    We need to respect that. We need to be able to recognize 
that. That is some of the things that came out of this report 
that we put together over the last few years. It is one of the 
things we are moving forward so we can continue to carry out 
our responsibility to do our consultation with all the Tribes, 
and do it in a way where they definitely feel the respect they 
deserve.
    Senator Udall. Are there other resources that might be 
needed to do this, Chief?
    Mr. Tidwell. This is ongoing work. One of the things we are 
looking at is how to have a better understanding of all the 
consultation. For some of our Tribes, it is just almost weekly 
that we are reaching out to them to consult on our various 
projects.
    We are looking at ways of how can we maybe get better 
organized so that there is less of a burden on them but at the 
same time they are getting the time they need with us, and the 
information they need in our proposals.
    To somehow lessen the burden that we put on our Tribes due 
to this consultation. That is the thing that we are working on. 
It is one of the things that came out of this report. There are 
various Tribes that are just inundated with the amount of 
consultation we are doing.
    We are looking to find a better way to be able to do that 
so it is a more efficient process, but more important, it is 
what the Tribes need. We are working very closely with them as 
we move forward to design some different approaches.

                         ENDANGERED SPECIES ACT

    Senator Udall. Thank you, Chief. I have heard, Chief, of 
complaints from stakeholders in New Mexico that when 
consultation is required for an Endangered Species Act on 
national forest lands, rather than coming to the table to work 
through concerns, after the Fish and Wildlife Service has done 
their informal assessment, the Forest Service points the finger 
at the Fish and Wildlife Service and tells constituents to go 
talk to them.
    There is often a sense that the Forest Service does not 
offer any flexibility to work through options and come to a 
reasonable solution for all interests.
    As you and I both know, the process of Section VII 
consultation is best performed through collaborative 
consultation, where the affected agencies and as appropriate 
stakeholders sit down and work through how best to implement 
the recommendations of the Fish and Wildlife Service to avoid 
jeopardy for a species, keeping local interests in mind.
    We all want to find what is best for the species, the 
forests, and New Mexicans within the law. Can you commit to me 
to helping to steward these issues in New Mexico, and work with 
the region to bring stakeholders together to address ESA 
concerns, not just sending them to another Federal agency and 
passing the buck?
    Mr. Tidwell. Senator, you have my commitment. I will reach 
out to leadership in this agency to ensure that we continue to 
work very closely with the Fish and Wildlife Service.
    In your State especially, we have some great relationships, 
and people are sitting down working together. I understand some 
of the challenges. When I look at the track record, I think we 
have a pretty good track record in our favor. However, I am 
sure there are opportunities for us to improve, so I will look 
into that.
    We are also finding the efficiencies that I believe are 
possible through our consultation when it comes to Section VII.
    We did some work up in the Pacific Northwest in the last 
few years with the Fish and Wildlife Service where the Director 
and I went out and met with our employees together to be able 
to share our commitment about how we need to work together, to 
not only protect the species, provide that habitat, but at the 
same time to get the work done on the ground that in so many 
cases is what protects that habitat.
    That is the sort of thing we need to probably expand, and I 
look forward to seeing what we can do in your part of the 
country.
    Senator Udall. Thank you so much, Chief. Thanks, Madam 
Chair.
    Senator Murkowski. Thank you, Senator Udall. Senator 
Hoeven.

                            GRAZING PERMITS

    Senator Hoeven. Thank you, Madam Chairwoman, Chief Tidwell. 
Good to see both of you here, thanks so much for appearing.
    Chief, in your testimony you referenced a legislative 
proposal regarding the extension of grazing permits. Obviously, 
grazing permits are very important to our State. Please tell me 
how that would impact North Dakota grazers.
    Mr. Tidwell. Our request is just so that all grazing east 
of the Mississippi, including the grasslands, would be 
considered.
    Senator Hoeven. You said east of the Mississippi?
    Mr. Tidwell. East of the Mississippi and all of the 
grasslands would be treated the same as the rest of grazing on 
national forests, so that we could continue to renew the 
grazing permits, even when we have not met the rescission 
schedule.
    We just believe we need that. It has worked out well on the 
national forests out West. We are asking just for what I think 
is a technical change so that the grassland permits and grazing 
permits east of the Mississippi would all be treated the same, 
and we can always be able to renew those permits.
    Senator Hoeven. The only thing I would be careful about, 
because I have run into this with natural resources management 
in a variety of agencies and a variety of capacities, not 
everything is the same. The same thing with energy development.
    The way we produce oil and gas, we are bringing it up from 
two miles down, very far from any potable water sources, a lot 
different than they do it in the Utica and other parts, 
Marcellus, for example.
    In the same way, our terrain is different; our climatology 
is different and so on and so forth. You have to have the 
ability to do what makes sense, common sense, on the ground, 
regardless of where you are.
    I am a little concerned about--I sometimes find that 
lawyers in Washington, DC get enamored with consistency across 
the entire United States. It is a big country, more than 300 
million people, and you have to be able to exercise common 
sense and good judgment on the ground depending where you are 
at.
    Mr. Tidwell. Senator, just let me clarify again what we are 
asking for is so that when a grazing permit with an association 
say on the grasslands, it comes up for renewal, that we are 
able to renew that permit even if we have not met the NEPA 
schedule and the rescission plan.
    It is just essential that we are able to always renew those 
permits. We have that authority on the national forests west of 
the Mississippi; we just are asking to have that authority for 
the grasslands and for the grazing in the East.
    Senator Hoeven. I have found that you are an individual 
willing to exercise good judgment. I want to make sure you have 
the flexibility and authority to do so.

                        ACCESS TO SECTION LINES

    In North Dakota, we have a section line law. Actually, I 
think it goes to our constitution. For every square mile, on 
every single section line, we have county roads. Those county 
roads are open to public access unless closed by the county 
commission.
    On some of the grasslands, we are running into situations 
where you and your people are restricting access to those 
section lines. We think that violates our law and constitution 
in the State of North Dakota.
    Mr. Tidwell. Senator, I will have to get back to you on 
that. I am not aware of the status. I know there has been some 
long-standing litigation on this issue. I will have to get back 
to you on that.
    [The information follows:]

    Regarding access to section lines, this matter is currently under 
litigation. At this time, and until resolved, we are unable to provide 
any further details.

    Senator Hoeven. Okay. As usual, and we have had you out 
there a number of times, we may have to have you come out 
again. In the summer, it is always a nice visit for you, is it 
not?
    Mr. Tidwell. It is.
    Senator Hoeven. We love having you. Our cowboys love seeing 
you. They have kind of gotten to know you.
    Mr. Tidwell. Can we go right now, today?
    Senator Hoeven. Yes, actually, that would be great today. 
We may have to have you come back. We may need your help on it. 
In the past, you have been very responsive when these kinds of 
issues have come up, and I appreciate it, but we seem to be 
bumping into this jurisdictional issue, so we may need your 
help again.

                              FIRE FUNDING

    I apologize, knowing our Chairwoman, she has probably 
already asked you about this, so this could be a redundant 
question but I have to ask you about funding for forest fires.
    Do you have adequate funding for forest fires, and will you 
once again tell me about your thoughts and I hope commitment to 
working with volunteer efforts and helping the State funding 
efforts.
    Obviously, in rural areas, we rely very heavily on our 
State, rural, and volunteer firefighters out there in a lot of 
these places. It is the volunteers that get there and fight the 
fires. They may get reinforcements, but they are first on the 
scene, and we need to make sure we are helping them. So, if you 
could just address that.
    Mr. Tidwell. In the fiscal year 2018 budget request, we are 
asking for full funding of the 10-year average cost of fire 
suppression. However, we also recognize that we need to work 
with Congress to find a solution for the cost of fire 
suppression.
    It is one of the things we are going to need both, the 10-
year average covers about 98-99 percent of the fires we have 
every year, but it is that 1 to 2 percent of our fires that 
when we have a very active fire season, it goes way beyond our 
capability to handle it within our appropriations.
    It is one of the things we are looking forward too. We need 
your help and ongoing leadership.
    Also, when it comes to volunteers, they are essential. They 
are often the first responders to fires, not only in your State 
but in most of our States. With our budget, we do provide 
funding for State fire assistance. However, it is one of the 
programs that there is a reduction in. I know that is going to 
be challenging. We want to work with the States to be able to 
get as much as we can to provide the support they need, the 
equipment they need.
    Senator, I also just need to thank you for your leadership, 
the meetings that I have attended that you have asked me to 
come out to your State, through your leadership, it has made a 
significant difference. I believe that we have better 
relationships, especially with a lot of our grazing 
associations today, better than ever. I give you the credit for 
taking the time to be there and the way you conduct those 
meetings. Thank you for that.
    Senator Hoeven. I appreciate that, Chief. You know, our 
cowboys there are an independent breed. They are out there come 
any kind of weather taking care of their livestock. It does 
take you coming out to kind of win their approval and 
acceptance, and I thank you for your willingness to do that. 
Appreciate it.

                      FIRE ASSISTANCE PROGRAM CUTS

    Senator Murkowski. Thank you, Senator Hoeven. The 
discussion about the State fire assistance, that is also an 
area that I would certainly have concerns with. In fiscal year 
2015, when we saw over 10 million acres burned nationally, 5.1 
million of those acres were in Alaska. What we received through 
the State fire assistance and the volunteer assistance 
programs, as you know, Chief, is great support for us.
    When we look at these proposed cuts, we see that it hits 
Alaska pretty hard with regards to that support for fire staff 
in leadership positions, as well as the initial attack 
firefighters.
    I guess the question to you as we are looking at this 
budget proposal is why not propose to make larger investments 
in these programs, again, in order to save the costs up front? 
It just seems to me that when we are talking about how we 
tackle these fires, that money up front is money well spent.
    Mr. Tidwell. Madam Chair, I agree with you about making the 
upfront investment, and with this budget request, we had to 
prioritize what was the highest priority work, and that is the 
work on the national forests, reducing threats to communities, 
and yes, there are some tradeoffs.
    I will point out again when I think of the $156 million 
increase in the 10-year average, if we had a solution to that, 
where you did not have to provide that level of increase in 
funding, it would go a long way to resolve a lot of these other 
issues that we have with our budget.
    These are very difficult reductions that we are proposing 
to very important programs. It is just a matter of priorities.

                              ROAD FUNDING

    Senator Murkowski. I think you have clearly heard that just 
about every Member who has been here this morning has raised 
this issue. It was again almost the exclusive subject of 
conversation between us as appropriators and me on the 
authorizing side with Senator Cantwell this morning with the 
Secretary. Working with the administration to finally resolve 
this, I think, has got to be key. As I look to your budget and 
the budget proposals, so much of this is really contingent on 
getting a fix, finally resolving this.
    I mentioned the decrease in my opening statement in the 
capital improvement and maintenance road funding. I look at 
this and am really quite concerned as to whether or not you 
have sufficient funding to keep open the roads that you 
currently have throughout the system, and whether or not you 
have sufficient resources to maintain the infrastructure, to 
help facilitate the recreation that we have been talking about, 
the restoration projects, the timber sales, so again, getting 
this right.
    I want to ask specifically on the question of the roads, 
and whether or not you believe you have the funding necessary 
in this budget proposal for the existing roads and keeping them 
open.
    We have a situation in Alaska. This is near Excursion 
Inlet. This is in Northern Southeast. We have a situation where 
there is a bridge there, which is in pretty tough shape, and it 
has caused that bridge to be shut down, apparently, 
indefinitely.
    The problem is that this bridge is the only way to get to a 
water source that is needed by a nearby cannery. This cannery 
employs 600 people there. It is basically the sole source of 
income or revenue generated for this community.
    You have fishermen that are impacted, process workers that 
are impacted, the local government's tax base, and it is all 
because you have a small little bridge here that you all cannot 
seem to maintain.
    We have a situation in that case where the local government 
has found half of the money, an additional $350,000 is needed 
to make the repairs. In this day and age, $350,000 should be 
pretty easy to round up and find, and yet because we have not 
been able to bridge this gap, excuse the pun, you have a local 
economy that is absolutely at risk.
    I look at this as a specific example and say how, given 
this budget and the reduction that you have proposed in the 
capital improvement and maintenance account--how are you 
keeping things open? What are you going to do here out in 
Excursion Inlet?
    Mr. Tidwell. Well, with this budget request, we are going 
to focus on maintaining our staffing and our expertise to be 
able to respond to the infrastructure plan, so that we can 
provide that access, maintain the access for not only 
recreation but also all the management of the national forests.
    Senator Murkowski. I need to make sure I understand exactly 
what that means. It means you want to make sure you have 
sufficient staff; correct?
    Mr. Tidwell. Yes.
    Senator Murkowski. If you have sufficient staff but you do 
not have the funding for the staff to work, why do we even need 
to keep the staff? You see my problem here. We have to have 
both. You have to have the manpower, obviously, but you have to 
have the resources to do that operation and that maintenance.
    Mr. Tidwell. Yes. If an infrastructure plan comes together 
and we do not have that expertise, we are not going to be able 
to move forward to implement it.

                          INFRASTRUCTURE PLAN

    Senator Murkowski. Are you banking on the President's soon 
to be released infrastructure package to be the end all and be 
all to solve things like a small little bridge maintenance 
issue in Northern Southeast? Are you looking to that to 
basically be your capital projects fund?
    Mr. Tidwell. The infrastructure plan could provide funding 
for that. Your bridge situation is not the only one.
    Senator Murkowski. I understand, and that is the reason I 
raise it, I know it is but one small, small example. Having 
recognized that, it speaks to the much larger problem, and 
again, if the view is rather than including funding in a budget 
proposal that would really help facilitate capital improvements 
and maintenance, instead of funding that, we are going to bank 
on a larger national infrastructure project, my concern is the 
big bridge, wherever it may be, will get that funding, but that 
$350,000 that is going to have an extraordinary ripple effect 
in this small community will be overlooked because it is not 
big enough potatoes.
    I think we all want to see what this infrastructure package 
will yield, but on the same hand, you do not want our 
departments to basically be viewing that as this will be the 
fund and the source for ongoing maintenance and operations of 
our existing infrastructure.
    Do you see my point?
    Mr. Tidwell. I do.
    Senator Murkowski. I am well over my time. Let me go to 
Senator Udall.

                      FIRE ASSISTANCE PROGRAM CUTS

    Senator Udall. Thank you, Madam Chair. The State and 
volunteer fire assistance are proposed for cuts of 11 and 23 
percent, respectively. Can you elaborate on the impacts of 
those cuts? How many fewer fire engines or equipment our State 
and local partners will be able to purchase and outfit?
    Mr. Tidwell. Senator, I do not have an estimate on the 
number of engines, but there is no question there will be less 
funding, less grant money available that we provide through the 
States to these volunteers.
    We are going to continue to do what we can to not only 
maintain our relationships but also to provide excess equipment 
to especially our volunteers who rely on that excess equipment 
that we are able to provide.
    It is one of the things that I am hopeful we can maintain 
that level of equipment, but there will be tradeoffs. There is 
just no question. If we make some very difficult choices with 
this budget, these are some of the things that we want to be 
able to be as responsive to the States' needs as we have been 
in the past.

                LAND AND WATER CONSERVATION FUND (LWCF)

    Senator Udall. Thank you. I want to work with Chairman 
Murkowski to restore the Land and Water Conservation Fund, 
including funds for both new and continuing acquisitions.
    As you know, Chief, the Forest Legacy Program, part of the 
LWCF, has also been incredibly successful in the 25 years it 
has existed, thanks largely to the work of our Vice Chairman, 
Senator Leahy.
    States submit projects and a selection committee of State 
foresters prioritizes the submissions. All the funds go to the 
States to be cost shared and are responsible so far for keeping 
over 2.6 million acres of non-Federal forest lands from being 
developed into non-forest uses.
    These lands continue to be working for us, providing 
sustainable timber and jobs and all other benefits that come 
from forests. In fiscal year 2017, the first phase of the 
Brazos Cliffs project in New Mexico was funded but it requires 
an additional $2 million in Federal funds to complete 
conservation of the property.
    Why does the budget eliminate such a valuable program, what 
outreach is the Forest Service doing to determine what impacts 
these funding cuts will have on State forest conservation plans 
without Forest Legacy funding or other State or private 
forestry programs eliminated by this budget, how will the 
Forest Service assist the States in preventing the 
fragmentation of environmentally significant forests?
    Mr. Tidwell. Senator, our budget request focuses on 
carrying and maintaining the lands that we currently have 
within the national forests and grasslands. So, that is our 
number one priority.
    Programs like the Forest Legacy and LWCF that have proven 
to be very helpful in the past, to be able to help landowners 
to keep their ranches, farms, forests as working lands has also 
been successful.
    However, with just tough choices, that is one of the things 
we need to focus on, taking care of the lands that we have. 
That is the rationale behind our budget request.
    Senator Udall. Senator Murkowski, I look forward to working 
with you on the Land and Water Conservation Fund and some of 
these projects that are moving along and have been in process.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Another proposed elimination I mentioned in my opening 
statement is dedicated funding for the Collaborative Forest 
Landscape Restoration Program. I think you mentioned this, 
Chief, in talking with Senator Merkley.
    This program funds 23 projects across the country. We have 
two in New Mexico, Southwest Jemez and Zuni Mountains. These 
projects have brought together public and private land 
managers, conservationists and Pueblos in a way that benefits 
both forest ecosystems and local economies.
    As you described, this is a really good partnership, good 
collaboration. If this budget were adopted, would current CFLR 
projects receive the funding that was committed to them when 
their agreements were signed?
    Mr. Tidwell. Those projects will have to now compete with 
all the other projects we have, but we can still go forward.
    The other thing I would point out with CFLRP is that where 
it has been very effective in parts of the country where we 
have hazardous fuels issues, we were not able to use that 
program in other parts of the country, whether it is in the 
lake States or places in Alaska where we still have the need to 
be able to make that long-term commitment for large landscapes.
    It has shown us the right way to work, the right way to be 
able to do it, it was limiting to those areas where we needed 
to have a hazardous fuels concern to be addressed.
    So, we are committed to moving forward and using this model 
beyond what we have done in the past. The reality is those 
ongoing projects are going to have to compete, and I suspect 
many of them will be able to compete very well.

            CAPITAL IMPROVEMENT AND MAINTENANCE PROGRAM CUTS

    Senator Udall. That is good. Given the President's bold 
statements about supporting rural jobs and building 
infrastructure, one of the most surprising cuts to the Forest 
Service budget is within the capital improvement and 
maintenance program, properly maintain facilities, roads and 
trails are necessary for the public to access and enjoy their 
public lands, not only that forest roads are necessary for 
contractors to implement fuels reduction projects and for 
logging companies to remove merchantable timber.
    I do not understand how a $100 million reduction in road 
construction will allow the administration to maintain the 3.2 
billion board feet level of timber sales that we have seen in 
the last several years, let alone meet many of the agency's 
multiple use mandates.
    Can you tell me what the rationale was for the cut to this 
program which creates jobs and supports the core functions of 
the agency? How do you plan to distribute such a paltry amount 
of funding for these activities? Will you continue to spread 
the funds proportionately across all of the regions, or will 
you focus on specific forests or initiatives?
    Mr. Tidwell. With our budget request, it does provide our 
ability to be able to maintain our staffing and expertise, to 
be able to respond to the infrastructure plan. If that does not 
occur, then we will have to look at our highest priority work 
across the country. There is no question there will be 
definitely less road construction.
    I need to stress that it is not new construction. These 
funds are really focused on maintaining our existing road 
system. We build a few new roads every year, primarily in 
Alaska, but even there, it is very few. This is work to be able 
to maintain the system that provides the access.
    We remain optimistic on the infrastructure plan, that we 
have proven in the past when additional funding has been made 
available to this agency, that we have been able to quickly 
respond, to be able to implement those projects, to be able to 
not only maintain our system but also deal with some of the 
deferred maintenance.
    I also think we can make a very strong case where our road 
system, our infrastructure, our bridges, our facilities, our 
campgrounds, it is a good investment. We have the economic 
information where we can show that by making this investment, 
there is a good return not only to providing the community 
access but also just providing the economic activity.
    Senator Udall. Thank you, Chief. Thank you, Madam Chair.
    Senator Murkowski. Thank you. Chief, you might notice that 
we did not take a break at 10:30 for a vote. It has been moved 
to this afternoon, which is good for us, maybe bad for you. It 
has allowed us to be efficient as we have moved through the 
questions. I just have a couple more.

                       HAZARDOUS FUELS MANAGEMENT

    On the hazardous fuel side of things, we have invested 
significant resources over the years. I am told over $1.4 
billion since fiscal year 2014. Now, what you are doing is 
proposing to move hazardous fuels spending out of wildland fire 
management and into the National Forest Service budget.
    I think you have heard a little bit of the frustration from 
folks here today on the pace and scale of hazardous fuels 
management within the national forests.
    I am a little concerned that the increase for national 
forest management is almost entirely made up of bringing over 
the hazardous fuels from the wildland fire account.
    Walk me through this strategy. Is this a cohesive strategy 
that somehow or another is going to allow us to better manage 
our national forests? Does it make us more efficient, more 
effective? How are we making sure that we are placing a 
priority on those acres that are most in need of hazardous fuel 
reduction?
    Give me the thought behind this, and why it is going to 
make management better.
    Mr. Tidwell. Our thinking behind this proposal is just to 
increase the integration between our hazardous fuels work and 
our forest management work. I will use the Ranking Member's 
State, when we are out there doing a timber sale, thinning out 
those forests, we are reducing hazardous fuels. There is a dual 
benefit.
    It is just to promote strengthening that integration. On 
the ground, when you get down to the ranger district level, 
this is already occurring.
    Our proposal is to be able to try this in a way so that we 
can actually increase the efficiencies and increase the 
integration and actually do a better job to be able to 
establish the highest priority work, and not only to deal with 
hazardous fuels work and wildland-urban interface, but also to 
do hazardous fuels reduction that is beyond wildland-urban 
interface, and at the same time to be able to increase the 
work, accomplishing this through our stewardship contracts and 
through timber sales.
    That is the purpose of this, just to increase our 
integration. I look forward to being able to report back to you 
on increased efficiencies. It is one of the things that we are 
going to track very closely as we move forward, if we get this 
change.
    I am optimistic that it will just strengthen our 
integration and allow us to be able to get more work done, and 
also make it a little easier to do those projects. So many of 
our projects have a combination of reducing hazardous fuels, 
they have timber sales, so as we have talked in the past about 
the regions where we have the pilot authority with the 
Integrated Resource Restoration (IRR) program, this will help 
us to be able to gain some of those efficiencies throughout the 
rest of the agency.
    Senator Murkowski. We are all about efficiency and making 
sure things work. I look at it, and call me a skeptic now, but 
if you can demonstrate this actually does get us to the place 
that you have outlined here, efficiencies are good.

                           RECREATION PERMITS

    Let me ask my final question here about recreation funding. 
This summer I am going to be blessed again, as a child of the 
Tongass, to be able to go back to my roots. When I go to 
Wrangell, everybody wants to know where are we on making sure 
that some of these recreation permits are moving through.
    You have a 4 percent decrease in this category here, this 
is less than some of the other decreases, I understand that. 
Again, even that hits pretty hard in some of these communities 
where this is a real big part of their economy here.
    In recent years, we have had some discussions about what we 
have seen within the State of Alaska for their recreation 
funding, and we have seen dollars allocated to Region 10 that 
have generally increased, but we continue to hear concerns 
regarding administration of the specific recreation programs in 
Alaska.
    It is an ongoing problem, unfortunately. I have been 
assured over the years that things were getting better, but I 
am told the Forest Service overall is touting a 31 percent cut 
in the recreation permit backlog, that is what I understand as 
I am talking to folks. They have not seen that yet.
    Making sure the Forest Service is continuing to modernize 
and to really make progress with the demand that is out there 
remains a priority of mine. I would ask for just an update from 
you in terms of how you feel this proposed level funding is 
going to impact the processing of permits, what assurances can 
I give so many in the Tongass that again are relying on an 
expeditious process in advancing these permits?
    Mr. Tidwell. Madam Chair, we made a significant investment 
this year to be able to modernize how we issue our special use 
permits, and the recreation permits are also the land use 
permits.
    We are going through that effort this year. You will start 
to see the real benefits of that starting next year.

                             MODERNIZATION

    Senator Murkowski. You know how that scares so many of us? 
Because when we hear the term ``modernize,'' what that means is 
it is a central facility located somewhere in Maryland, not 
that Maryland is bad but it is a long way from Wrangell, 
Alaska. That modernization, that efficiency, does not 
necessarily translate well to the person on the ground.
    I do not mean to interrupt you there, but that is a 
concern. I understand we need to get to a more efficient 
system.
    Mr. Tidwell. Well, I will choose a different term in the 
future.
    Senator Murkowski. Okay.
    Mr. Tidwell. The effort is for us to really identify so 
many of our activities really have no impact out there on the 
land, and yet we still require the applicants to go through a 
very lengthy process, so we are identifying those types of 
activities so that we can quickly provide that permit.
    Over time, we are going to be moving to e-permitting, so 
where folks have that connectivity in the future, they are 
going to be able to do this through say the Internet or ideally 
on their telephone for a lot of the permits that take up a lot 
of time.
    Senator Murkowski. It takes me back to that roadless rule 
and how we still cannot get that connectivity on our 
Smartphones in so many places. We will work with you on that.
    Mr. Tidwell. That is what this is about. It will free up 
our staff's time to really focus on the bigger proposals that 
we need to put the time into, do the public comment period, be 
able to sit down with the public.
    That is our effort to basically improve our processes and 
really identify a lot of things that we currently permit. We 
ought to be able to just quickly turn that around and make it 
very easy on the applicants, and then free up our time to 
really work on the more significant proposals that come in.
    Those are the things that we are working on this year. We 
made that significant investment to be able to have the staff 
spend the time on it this year so we can move forward with it 
next year.

                    FISCAL YEAR 2018 BUDGET REQUEST

    Senator Murkowski. With the funding cuts in the budget, 
will they impact what you are trying to do there as you are 
modernizing or updating this?
    Mr. Tidwell. There is no question when it comes to 
recreation, we have a tremendous backlog, not only in permits 
but in our facilities, and just being responsive and providing 
those outdoors experiences.
    I am hopeful that the efficiencies we can gain through this 
can offset the reduction we see in the budget. We are also 
expanding our work with partners to be able to get more people 
to come to the table to help us on this work.
    Those are the ongoing efforts. I wish we were in a 
different scenario. The reality of it is what we are trying to 
do is focus on the highest priority work, gain efficiencies 
through our processes so that we can continue to be as 
responsive as possible, and really do a much better job when it 
comes to a lot of our special use permits, and especially with 
the recreation activities.
    It is the number one economic activity off the national 
forests throughout the country, and it is not only the jobs 
that are provided, but it is just that quality of life. People 
want to have access. Groups want to be able to go out. That is 
one of the things we want to really change, how we deal with 
applications for groups that want to go out on the national 
forests, whether it is a church group, a scouting group, a city 
supported program, and to find ways that we are going to be 
much more efficient in being able to process those and actually 
eliminate a lot of the process that these folks have had to go 
through in the past.
    Senator Murkowski. Do not get me wrong. I am supportive of 
greater efficiencies and anything that would allow for an 
easier opportunity to access. I do think that has been 
limiting, and I think it has been unduly burdensome at times.
    Working to get this right is something that I appreciate. 
We have had this conversation before where you have had a 
history in a region of being able to derive and maintain a 
local economy because of the availability to harvest on our 
national forests. Our policies have moved us away from that.
    The Forest Service says look to tourism from our national 
forests, use that as your more sustainable economy. We have 
individuals that go that direction, and yet they are stymied 
with their ability to get a permit to do just that.
    When you are a community like Ketchikan, .03 percent of the 
Ketchikan borough is available as a taxable land base because 
everything else is part of our national forests, you basically 
have been told by your national forest you cannot cut trees, go 
ahead and engage in tourism, but we cannot get you the permits 
to do the tourism. Where do you go as an economy?
    So, this is the frustration. It is nothing new, it just 
continues. When you talk about gaining efficiencies, know that 
I want to work with you on that, but you cannot talk about it 
and say this is the direction we are going, and then reduce 
your budget. It does not allow you to get there.
    We will work with you on that. I have way exceeded my time, 
Senator Udall. Please proceed.

                            QUALIFIED PILOTS

    Senator Udall. Thank you. I just have one final question, 
Chief, and thank you so much for your testimony today.
    This is in regard to aviation and fighting fires from the 
air. Additional planes in the pipeline, converted Coast Guard 
C-130Hs, there is a schedule that is working out there. I 
understand there is some talk about having not enough qualified 
pilots for the number of aircraft you expect to operate when 
you are outfitted with a full complement of your contractor and 
government air tankers.
    Are these concerns legitimate, and do you share them?
    Mr. Tidwell. Senator, I am not aware of concerns. I will 
get back to you on that. I have not heard that.
    [The information follows:]

    The USDA Forest Service does not expect problems in hiring enough 
qualified pilots for its C-130 large airtanker fleet. In the summer of 
2015, the Forest Service published a Request For Information in 
FedBizOpps.gov for the programmed fleet of C-130 large airtank:ers. 
There were five companies that responded they would be able to provide 
the necessary pilots for the program. The responses included companies 
currently under contract with the Forest Service as well as companies 
not under contract. It included different approaches to staffing such 
as taking current airtanker pilots and training them in the C-130 as 
well as hiring experienced C-130 airtanker pilots. We do not expect 
significant changes in industry's ability to provide pilots.

    Mr. Tidwell. As we move forward to bringing on the C-130Hs, 
we are going to contract the operation of those out, and I do 
not expect we are going to have any problems. I know our 
contractors that are providing the large air tankers, they seem 
to have pilots that are capable of flying those aircraft.
    If there is an issue here, I will get back to you, but I am 
not aware of one.
    Senator Udall. Thank you very much, appreciate it. Thank 
you, Madam Chair. I look forward to working with you.
    Senator Murkowski. I do as well, Senator Udall. I 
appreciate it. Chief, I appreciate your time here today. Ms. 
Elliot, we did not ask you any questions. The Chief was able to 
handle himself adeptly, which we appreciate.
    We clearly have a lot of work to do. I think you have 
genuine commitment from this committee as well as others on the 
Energy Committee, and working with the Secretary to address how 
we are going to deal with the issue of fire and fire budgeting. 
We have to get that behind us. I think that will help to 
address some of the concerns that have been raised today.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Chief Tom Tidwell
             Questions Submitted by Senator Lisa Murkowski
                        tongass forest inventory
    Question. In the winter of 2015, the Tongass Advisory Committee 
(TAC) recommended the Forest Service complete a comprehensive stand-
level inventory of young growth and old growth (to come up with bridge 
timber) on the Tongass in order to determine the volume of timber 
available to transition the timber program to young growth in the 
artificial timeframe called for by our last Secretary of Agriculture.
    In July 2015 the State of Alaska and USDA State & Private Forestry 
have entered into a $4 million challenge cost share agreement to 
inventory a sample of young growth (and old growth) on Prince of Wales 
Island. Two and a half million dollars will be used to improve forest 
resource inventory information and $1.5 million will be used to support 
workforce development, improve forest industry infrastructure, and 
support young growth forest management practices.
    It is my understanding that approximately 11,000 acres of young 
growth and 11,000 acres of old growth have been surveyed so far and the 
next field season is gearing up. I want to be clear, I still believe 
this work should have been done before the Tongass Land Plan was 
amended to lock in the last Secretary's transition timeline and I hope 
this administration will wait to move forward with the transition until 
it has this information.
    Given that you have finished more than a third of the 70,000 acres 
that are part of the sample inventory what are the preliminary results? 
Is there any ``fall down'' in the timber availability estimates because 
of timber harvest prescriptions or additional land set-a-sides needed 
to meet current Forest Service environmental standards and guidelines?
    Answer. Preliminary results of the inventory are not yet available. 
The focus of the fiscal year 2016 and fiscal year 2017 field seasons 
has been on the collection of the data (plots) as well as meeting the 
other deliverables in the agreement (workforce development and all 
lands/all hands southeast Alaska-wide engagement). The forest expects 
to post the raw survey data online soon. Verified stream data is 
critical in determining fall down acreages.
    Question. How much additional funding, if any, will the Forest 
Service need to complete the comprehensive inventory called for by the 
TAC of all timber resources (not just this sample study underway) and 
does the Forest Service plan to move forward to accomplish that work?
    Answer. The Tongass Advisory Committee recommended the Forest 
Service ``complete a thorough analysis of young growth inventory at the 
stand level in the first 3 years of the transition to more accurately 
predict the young growth timing and supply to complete the 
transition.'' The stand-level inventory currently being conducted under 
the Challenge Cost Share agreement between the Forest Service and the 
State of Alaska includes both young growth and old growth. The 
information gained from this inventory, along with other existing 
information, is of sufficient scope and depth to plan project-level 
timber sales. We believe that the amount of data being collected during 
2016-2018, as funded by the Challenge Cost Share agreement, will be 
sufficient to complete a comprehensive inventory for the Tongass.
    Question. Do you have enough money in your budget to implement 
another TAC recommendation that the Forest Service fund a ``cut up'' 
study to determine if there are products that can successfully be made 
and marketed using the quality of Young Growth that grows in the 
Tongass? Is production of Cross Laminated Timbers (CLTs) for 
construction a likely market for Tongass Young Growth?
    Answer. There is currently sufficient funding in the fiscal year 
2017 budget to complete the remaining layout and conduct all necessary 
plot measurements in advance of harvesting. The ``cut-up'' study is 
being designed by the Pacific Northwest Research station in Juneau. 
Sites have been selected and verified on the ground. The study plan 
calls for harvesting, sorting, transporting, and milling to occur via a 
separate contract in the spring of 2018. Funding early in fiscal year 
2018 would be necessary to ensure implementation during 2018.
    Production of cross laminated timber (CLT) could be a future option 
for Tongass young growth, and would depend on reliability of the timber 
supply; cost of power needed for drying, dressing, laminating, and 
pressing the timbers; and whether the end product can be cost 
effectively transported into the market stream. While demand for CLT is 
growing throughout the United States, with more than 100 CLT buildings 
in planning stages at this time, additional analysis needs to be done 
on supply and demand for CLT to see if it is a viable future option for 
Tongass young growth.
                            hazardous fuels
    Question. Is moving Hazardous Fuels funding out of Wildland Fire 
Management and into National Forest System part of a cohesive strategy 
that will improve management of our national forests and lead to 
healthier ecosystems and less catastrophic fire?
    Answer. Yes. Hazardous fuels treatments will be better coordinated 
with other National Forest System treatments, which should improve 
effectiveness and allow the Forest Service to improve our ability to 
achieve integrated outcomes in a financially constrained reality.
    Question. How will it make the program more effective or more 
efficient?
    Answer. Because hazardous fuels management occurs primarily on 
National Forest System lands, this shift will allow for hazardous fuels 
work to be better coordinated and integrated with other treatments.
    Question. Will the ecological underpinnings of the program be 
maintained as it is moved into a budget system that has a landscape 
level approach?
    Answer. Yes. The Hazardous Fuels program will continue its 
ecological approach to reduce wildfire risk and develop resilient 
ecosystems.
    Question. What is being done to make certain that the highest 
priority acres are the ones that are treated?
    Answer. Assessments of fuels treatment effectiveness show that 91 
percent of treatments were effective in changing fire behavior and/or 
helping to control wildfire in fiscal year 2016. Hazardous fuels 
treatments are prioritized to focus on areas with highly valued 
resources like communities, areas of high fire potential, and areas 
where the agency could alleviate risk most effectively. The agency 
continues to evaluate the risk to communities and monitors the 
effectiveness of fuels treatments to ensure highest priority acres were 
addressed.
    Question. How does the Forest Service plan to prioritize cross-
boundary treatments?
    Answer. The Hazardous Fuels program emphasizes cross-boundary work 
through efforts such as the Joint Chiefs' Landscape Scale Restoration 
program with the Natural Resources Conservation Service as well as 
selecting projects that reduce wildfire risk where communities are 
actively engaged. The Forest Service will continue to prioritize 
funding where multiple efforts are working to treat the landscape 
across ownerships.
       collaborative forest landscape restoration (cflr) program
    Question. The fate of the individual CFLR projects is unclear in 
the budget documents. Given that CFLR projects historically are also 
funded with dollars outside the CFLR line, does the budget propose to 
eliminate the individual CFLR projects or would it keep the 
collaboratives in place?
    Answer. Although the fiscal year 2018 budget proposal includes the 
elimination of this program, existing CFLRP projects, and the 
collaboratives they support, will remain in place and will be funded 
through other agency programs that do restoration work. The Forest 
Service will continue to promote collaborative forest management and 
landscape scale restoration strategies within our other programs.
    Question. Do you have updated information to quantify how the CFLR 
program reduced unit costs, either for acres treated or per unit of 
wood produced; how CFLR project areas have reduced NEPA costs and 
increased the speed with which NEPA analysis is completed; how many 
actual acres have been treated in CFLR project areas compared with non-
CFLR acres since 2010; and, how those numbers compare with the unit's 
pre-CFLR performance?
    Answer. The Forest Service does not maintain information on the 
cost per acre or unit of wood sold by CFLR. While the funds 
appropriated through the CFLR authorization cannot be spent on NEPA 
analysis, we have learned that collaboration can result in NEPA 
efficiencies. Agency-wide in 2016, completing the NEPA analysis 
(defined as from Notice of Intent to signed Finding of No Significant 
Impact or Record of Decision), took 730 days for Environmental 
Assessments (EAs) and 1,373 days for Environmental Impact Statements 
(EISs). CFLR projects increased community support for large scale 
projects, reduced number of objections to projects and--for the most 
part--eliminated lawsuits. Preliminary data show CFLR projects 
completing NEPA analyses in less time:
  --In Colorado, the Escalante Landscape Restoration Stewardship EA 
        took 192 days.
  --In Colorado, the Dove Vegetation Management Project EA took 615 
        days.
  --In Oregon, the Magone EIS took 808 days.
  --In Idaho, the Lost Creek Boulder Creek EIS took 557 days.
    CFLR projects also increased community support for large-scale 
projects, reduced number of objections to projects and--for the most 
part--eliminated lawsuits. The five forests with CFLR projects averaged 
a 43 percent increase in hazardous fuels treatment after starting CFLR. 
As a point of comparison, over the same period, the Region as a whole 
experienced a 10 percent increase, and without the CFLR projects, the 
Region actually declined. The five forests with CFLR projects showed a 
14 percent increase in timber volume sold, compared to a 7 percent 
increase across the Region over the same time period.

------------------------------------------------------------------------
 Increase in Performance
  Measure Outputs After    Region 6 CFLR Forests      Total Region 6
          CFLR
------------------------------------------------------------------------
Hazardous fuels           43 percent increase...  10 percent increase
 treatments
Timber volume sold        14 percent increase...   7 percent increase
------------------------------------------------------------------------

         wildland fire management preparedness funding changes
    Question. The Forest Service proposes to move funding for the first 
8 hours of work per day for a firefighter, known as ``base 8'' pay, out 
of fire suppression and into preparedness. This certainly reflects a 
more accurate and disciplined approach for funding firefighter pay and 
puts the agency in-line with practices at other agencies. How will this 
impact the Forest Service? Will switching to this type of accounting be 
seamless or do you anticipate this change causing a significant 
disruption?
    Answer. The Base 8 shift moves the Forest Service to a more 
disciplined budget structure because salaries for all firefighters are 
planned for in full, rather than making assumptions about how often 
during a fire season they will be deployed to an incident. This will 
improve national and regional accountability, as well as budget 
planning to support appropriate levels of firefighting resources. We 
are preparing to implement this change officially starting October 1, 
2017 and do not expect this change to cause significant disruption.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                   natural resources and environment
    Question. On May 11, Secretary Purdue announced a reorganization at 
USDA, which included moving the Natural Resources Conservation Service 
out of the Undersecretary of Natural Resources and Environment's 
portfolio, leaving only the Forest Service within his or her purview. 
What are the benefits to the Forest Service and its employees in this 
organizational shift?
    Answer. The Under Secretary for Natural Resources and Environment 
will be able to focus attention on the mission of the Forest Service 
and the agency's employees, giving more attention to the crucial task 
of managing our national forests and ensuring Federal land managers are 
good and helpful neighbors to surrounding private land owners.
                       forest and range research
    Question. How will the proposed decreases in the President's budget 
for research related to wildland fire & fuels, invasive species 
recreation, resource management, water, air & soil, and wildlife & fish 
support the fiscal year 2018 budget's stated goal to acquire knowledge 
to better manage forests and expand markets for wood and biomass?
    Answer. Forest Service research will continue to provide the 
foundation to manage forests for resiliency to a variety of forest 
threats, including fire, insects and diseases, and drought. The agency 
will focus research and monitoring efforts on targeted and immediate 
needs of National Forest System land managers so we continue to meet 
management objectives. Research investments that do not contribute to 
immediate National Forest System land management needs will be reduced. 
The Forest Service will continue economic evaluations, data collection, 
and development of management tools necessary for National Forest 
System managers. This enables them to assess and address wildfire risk, 
detect and respond to invasive species, conduct watershed condition 
assessments, write NEPA impact statements, and document air quality 
status and trends as part of the Clean Air Act's New Source Review/
Prevention of Significant Deterioration program that protects Class I 
Wilderness Areas. The agency will also continue to work with non-
government organizations and solicit industry input to grow new markets 
and support research on mass timber products.
                        state & private forestry
    Question. Do the proposed reductions and eliminations of State & 
Private Forestry programs represent a retreat from the ``all lands, all 
hands'' focus of previous years?
    Answer. Partnerships are critical in implementing and delivering 
State and Private Forestry (SPF) programs. Through a coordinated effort 
in management, protection, conservation education, and resource use, 
SPF programs help facilitate sound stewardship of lands across all 
ownerships on a landscape scale. Meanwhile, they offer flexibility to 
individual forest landowners to pursue their objectives. The fiscal 
year 2018 President's budget reduces funding for some SPF activities to 
focus resources on maintaining existing national forests and 
grasslands, including elimination of funding for the Urban and 
Community Forestry and Landscape Scale Restoration programs. This 
budget will require greater shared stewardship of the land between the 
Forest Service, other Federal agencies, and State and local communities 
to achieve our goals.
    Question. It is often said that the Chief of the Forest Service is 
the ``Chief Forester for America's Forests.'' And, the role of the 
Forest Service is to apply its direct and indirect role to the 
management, protection and use of all forests, including the 138 
million acres of urban forests. Does the proposed President's budget 
enable the Forest Service to carry out this ``all-lands'' stewardship 
responsibility? If not, what is required of the agency to achieve this 
mission-directed responsibility?
    Answer. While the fiscal year 2018 budget focuses Forest Service 
resources and activities on the maintenance of the National Forest 
System lands, the agency will continue to work with State, Tribal, and 
private partners to the extent possible in support of the all-lands 
approach to sustaining and restoring the Nation's forests. This budget 
will require greater shared stewardship of the land between the Forest 
Service and State and local communities to achieve our work.
    Question. What outreach is the Forest Service doing to States to 
determine the impact of the proposed funding cuts in State & Private 
Forestry on implementing State forest conservation plans?
    Answer. States are in the early stages of updating their State 
Forest Action Plans, which should be completed by 2020. The Forest 
Service is in close, ongoing coordination with State agencies, who are 
aware of the potential impacts of the fiscal year 2018 budget on State 
programs.
    Question. How will the administration fulfill its commitment to 
working more closely with States and assisting them with their forest 
action plans with the President's budget proposal to eliminate the 
Landscape Scale Restoration Program, which funds the top national 
priorities in States' forest action plans?
    Answer. The fiscal year 2018 President's budget reduces funding for 
some activities to focus resources on maintaining existing national 
forests and grasslands. This resulted in the elimination of funding for 
programs on and off National Forest System lands, including the 
Landscape Scale Restoration program. This budget will require greater 
shared stewardship of the land between the Forest Service and State and 
local communities to achieve our forest management goals.
    Question. Community and urban trees can be considered critical 
infrastructure for both rural communities and cities and State 
Foresters utilize the Community and Urban Forestry Program to make 
communities more livable, healthier, energy efficient and vibrant by 
funding seed money for the planning, planting, and long-term care of 
trees. How does the elimination of funding for this program in the 
President's budget advance the administration's goals of building 
infrastructure and assisting states and underserved communities?
    Answer. The fiscal year 2018 budget enables the Forest Service to 
focus on the maintenance of the National Forest System lands. This 
resulted in the elimination of funding for programs off National Forest 
System lands, including the Urban and Community Forestry program. This 
budget will require greater shared stewardship of the land between the 
Forest Service and State and local communities to achieve our work and 
to reach underserved communities.
    Question. Last year, over 80 percent of the Nation's wildfires and 
almost half of the acres burned occurred on State and private lands. 
The State Fire Assistance, Volunteer Fire Assistance, Cooperative 
Forest Management, and Hazardous Fuels programs all provide significant 
resources for non-Federal partners to prevent and suppress fire, which 
knows no boundaries. Will the President's budget's proposed cuts to 
these programs increase or decrease the potential costs of Federal 
firefighting and wildfire devastation?
    Answer. In fiscal year 2018, the budget request proposes $69.4 
million to assist State and local response agencies in providing 
wildland fire response through the State Fire Assistance program. 
Funding at this level will assist State and local agencies in 
implementing pre-fire prevention and mitigation programs and to develop 
and maintain an effective wildfire suppression capability as described 
in a State's Forest Action Plan.
    The fiscal year 2018 budget request proposes $11.6 million to 
provide financial assistance to communities of 10,000 or fewer 
residents to strengthen and maintain fire suppression capacity. Program 
funding helps Federal, State, and local agencies deliver a uniform and 
coordinated response to wildfire by training, equipping, and organizing 
volunteer fire departments. Through this program, the agency provides 
support that helps rural communities prepare for, mitigate, and respond 
to natural and human-caused fires to prevent the fires from spreading 
to lands managed by other jurisdictions.
    Many factors, including increasing temperatures, the 
unpredictability of precipitation, and vegetative fuel accumulation, 
are amplifying the effects and costs of wildfires. It is very difficult 
to predict the percentage of wildfire occurring in a given year on a 
particular land ownership. Further, more development is taking place in 
the wildland-urban interface, leading to increased densities of people 
and infrastructure. This makes management more complex and requires 
more firefighting assets to ensure an appropriate, safe, and effective 
response that protects lives and property.
    Question. Without Forest Legacy funding, or the other State & 
Private Forestry programs eliminated by this budget, how will the 
Forest Service assist States in preventing the fragmentation of 
environmentally significant forests?
    Answer. The fiscal year 2018 President's budget reduces funding in 
some programs to focus resources on maintaining existing national 
forests and grasslands. This resulted in the elimination of funding for 
programs on and off National Forest System lands, including the Forest 
Legacy Program. This budget will require greater shared stewardship by 
States, communities and private land owners to accomplish valuable 
forest management goals, including preventing forest fragmentation.
    The Forest Service will maintain its responsibility to execute and 
monitor Forest Legacy projects funded to date, including 20 projects 
funded through fiscal year 2017. The Forest Service will continue to 
work with States as they update required State Forest Action Plans and 
seek to develop strategies with States to utilize other Federal and 
non-profit funds.
                         national forest system
    Question. The Forest Products budget line is kept at the fiscal 
year 2016 enacted level, which is estimated to allow for 3.2 billion 
board feet of timber. However, every other National Forest System and 
Capital Improvement and Maintenance line item necessary to achieve 
projected forest product outputs is proposed for reduction. How will 
the Forest Service meet its objectives for timber sales with these 
cuts?
    Answer. Building and maintaining roads in support of the timber 
program remains a high priority for the agency. The budget proposal 
requests $75.2 million for roads, which will be sufficient to maintain 
a workforce ready to implement priority work. For the purpose of timber 
harvest, the Forest Service will focus on leveraging mandatory funding 
sources where appropriate, such as Timber Salvage Sales, which can 
offset some of the cost for design and administration of timber haul 
roads.
    Question. What impacts will the reduced funding levels in the 
President's budget have on the ongoing effort to modernize and improve 
the outfitter-guide permitting system? Will these proposed cuts result 
in the elimination of staff positions needed to administer the 
permitting system?
    Answer. Within the fiscal year 2018 request, modernizing and 
improving the outfitter-guide permitting system remains a high 
priority. There will be no impact on this modernization effort. There 
will not be cuts to staff working on permit modernization. As we 
prioritize this work, we will ensure the project has sufficient staff 
to succeed.
                  capital improvement and maintenance
    Question. What is the current dollar total of the Forest Service 
deferred maintenance backlog? Will the President's budget request 
reduce or increase that backlog, and by how much?
    Answer. The current deferred maintenance backlog totals 
approximately $5.5 billion. The budget proposes $99.7 million for 
Capital Improvement and Maintenance. If no other investments are made 
towards the agency's roads, trails, and facilities, the agency's 
deferred maintenance backlog will grow, but the amount of growth is not 
known.
    Question. The Forest Service estimates that recreation on National 
Forests sustains 143,000 jobs and contributes roughly $10 billion to 
the economy. What will be the economic costs in jobs and dollars of the 
proposed cuts to Capital Improvement and Maintenance line items?
    Answer. The Forest Service remains committed to supporting rural 
infrastructure needs which support visitor spending and small 
businesses that depend on recreation. The fiscal year 2018 budget 
proposal allocates $99.7 million for Capital Improvement and 
Maintenance, $11.7 million for facilities, $12.7 million for trails and 
$75.2 million for roads. This requested funding will maintain a 
workforce to perform critical work and improvements.
    We will work to maximize the use of our $60-70 million collected 
annually in recreation fees, but the use of these fees is 
circumscribed--95 percent of fees must be used on the forest where they 
are collected, and fees are limited to uses relating to improving the 
recreation experience. We are already using these fees, and collections 
are relatively flat.
    Question. How will the elimination of the Legacy Roads and Trails 
program impact the Forest Service's statutory responsibility to protect 
water quality on National Forest lands and how will the Forest Service 
ensure the impacts on water quality from roads continue to be 
addressed?
    Answer. Maintaining water quality and quantity remains an important 
priority for the agency. The Forest Service remains committed to doing 
priority work under our regular (non-Legacy) roads and trails programs, 
including maintenance and decommissioning of roads and trails as 
appropriate. The Forest Service will prioritize roads and trails work 
based on managing existing infrastructure and maintaining public safety 
and needed access, and defer other projects as needed, including those 
impacting water quality.
    Question. What programs besides Legacy Roads and Trails are 
uniquely designed to address the impacts on water quality from forest 
roads?
    Answer. We do not have another program uniquely designed to address 
water quality issues resulting from roads. However, under our multiple 
statutory authorities to protect clean water, we will continue work to 
restore degraded and at-risk watersheds and address road-related 
impacts to water quality. In addition we will continue work to maintain 
or improve the condition of those watersheds in good or better 
condition. These efforts are supported by a number of Forest Service 
programs, such as maintaining and decommissioning roads through our 
Roads program. We will also address water quality impacts through the 
Hazardous Fuels, Vegetation and Watershed Management, and Wildlife and 
Fish Habitat Management programs.
                            land acquisition
    Question. Why is the Forest Service proposed for zero funding for 
Land Acquisition, apart from $7 million in acquisition management, when 
the Interior bureaus did receive program funding for inholdings, 
emergencies, and hardship projects?
    Answer. The fiscal year 2018 President's budget focuses resources 
on maintaining existing National Forests and Grasslands, rather than 
acquiring new Federal lands or interests in lands. Based on that 
rationale, the budget proposes completing land acquisitions that 
Congress previously appropriated. The Forest Service and the Interior 
bureaus have different missions and rationale for their budgets and the 
Forest Service cannot comment on another bureau's decisionmaking 
process.
                        wildland fire management
    Question. How will the increase to the 10-year average and the 
commensurate reductions to management programs that reduce wildfire 
suppression costs over the long term further exacerbate the risk of 
catastrophic wildfire?
    Answer. Due to the shift of base 8 funding (the first 8 hours per 
day worked by a firefighter) from Preparedness to Suppression in the 
fiscal year 2018 President's Budget, the 10-year average cost of fire 
suppression decreased. As a whole, however, Wildland Fire Management 
costs now consume greater than 50 percent of the Forest Service budget. 
The ongoing shift in resources necessary to fund wildland fire 
management has had an impact on many aspects of land management, 
including capital investment, deferred maintenance, and forest 
restoration projects that help reduce the risk of future fires. These 
are dollars lost to the fire program before a single fire even starts 
and cannot be regained through transfer repayment. They are permanently 
shifted to fire and away from essential land management activities that 
could be accomplished.
    Question. What changes need to occur now and in the near future to 
stop the increasing proportion of the Forest Service budget that is 
devoted to wildland fire management? What is the current leadership of 
the agency doing to effect that change?
    Answer. The administration recognizes budget challenges for 
ensuring sufficient resources to fight fire. The administration is 
committed to finding a solution that addresses the growth of fire 
programs as a percent of the agency's budget, and also ends the 
practice of transferring funds from non-fire programs when suppression 
funds fall short before the end of the fiscal year. We are reviewing 
potential administrative actions and legislative options to address 
longstanding wildland fire funding concerns. Principals at USDA and the 
Department of the Interior will work with the Office of Management and 
Budget to develop a responsible approach that addresses risk 
management, performance accountability, cost containment, and the role 
of State and local government partners in ensuring adequate funds are 
available for wildfire suppression without undue disruption to land 
management operations.
    Question. What aspects of the President's budget will assist the 
Forest Service in implementing the National Cohesive Wildland Fire 
Management Strategy, including using fire as an ``essential ecological 
process'' and to ``actively manage the land to make it more resilient 
to disturbance?''
    Answer. The foundation of the National Cohesive Wildland Fire 
Management Strategy (Cohesive Strategy) is that the active involvement 
of all levels of government and non-government organizations, as well 
as the public, is necessary to seek national, all-lands solutions to 
wildland fire management. The fiscal year 2018 President's budget 
supports several programs and authorities that assist the agency in 
implementing the Cohesive Strategy, including (but not limited to):
  --A robust Preparedness program will ensure that fire management 
        assets, such as large air tankers, helicopters, hot shot crews 
        and smokejumpers, are available to support response operations 
        on National Forest System, other Federal, State, and private 
        lands. These response efforts will reduce threats to life and 
        values at risk, promote ecosystem integrity, and be consistent 
        with land management objectives laid out in the Cohesive 
        Strategy.
  --The State Fire Assistance Program will continue to provide 
        financial assistance through partnership agreements with State 
        Foresters to help homeowners and communities in fire-prone 
        areas take responsibility for fire protection. The program 
        contributes to the Cohesive Strategy, ensuring strong 
        collaboration among government and non-government organizations 
        to seek all-lands solutions to wildland fire management. This 
        is important because first responders on almost 75 percent of 
        wildfires are local fire departments or State agencies.
  --The Volunteer Fire Assistance VFA program will continue to provide 
        technical and financial assistance to qualifying local 
        volunteer fire departments that protect communities with 
        populations of 10,000 or fewer. Volunteer fire departments play 
        a key role in educating constituents about fire adaptation and 
        the need for mitigation, and they help meet expanded fire 
        protection needs within the wildland-urban-interface in the 
        context of the Cohesive Strategy.
  --The Hazardous Fuels program is a key component of the Cohesive 
        Strategy. In fiscal year 2018, the program will continue to 
        contribute to restoring and maintaining resilient landscapes, 
        creating fire adapted communities, and improving response to 
        wildfires.
    Question. How does the President's budget enable the Forest Service 
to adequately address the pace and scale necessary to restore America's 
forests and begin reducing the dominating focus of the Service on fire 
suppression?
    Answer. The fiscal year 2018 President's budget focuses resources 
on maintaining national forests and grasslands and reduces funding for 
other activities. The administration recognizes budget challenges for 
ensuring sufficient resources to fight fire; it is committed to finding 
a solution that addresses the growth of fire programs as a percent of 
the agency's budget, and also ends the practice of transferring funds 
from non-fire programs when suppression funds fall short before the end 
of the fiscal year. Principals at USDA and DOI will work with the 
Office of Management and Budget to develop a responsible approach that 
addresses risk management, performance accountability, cost 
containment, and the role of State and local government partners in 
ensuring adequate funds are available for wildfire suppression without 
undue disruption to land management operations.
    Question. The current Wildland Fire Management program has two 
primary components: operations, focused on preparedness and 
suppression; and a hazardous fuels program that has strong ecological 
and natural resource management components. Given the real concern of 
the Forest Service becoming the Fire Service, why purposefully isolate 
fire operations functions by transferring the hazardous fuels program 
to the National Forest System appropriation?
    Answer. Hazardous fuels treatments will be better coordinated and 
integrated with other National Forest System treatments, which should 
improve effectiveness and allow the Forest Service to achieve 
integrated outcomes.
    Question. The fiscal year 2018 budget proposes to pay for 
firefighters' base salary and benefits within the Preparedness program 
rather than the Suppression program. Why is this change being made?
    Answer. The base salary and benefits shift moves the Forest Service 
to a more disciplined budget structure because the salaries for all 
firefighters are planned for in full, rather than making assumptions 
about how often during a fire season they will be sent to an incident. 
This will improve national and regional accountability, as well as 
budget planning to support appropriate levels of firefighting 
resources. We are preparing to implement this change officially 
starting October 1, 2017.
                            other operations
    Question. What is the purpose of moving the Hazardous Fuels 
reduction program to the National Forest System appropriation? Does 
this proposal in any way change the emphasis or the distribution of 
funds for the fuels program?
    Answer. Because hazardous fuels management occurs primarily on 
National Forest System lands, hazardous fuels treatments will be better 
coordinated with other National Forest System treatments, which should 
improve effectiveness and allow the Forest Service to improve our 
ability to achieve integrated outcomes. The intent is to improve 
coordination and integration and we don't anticipate any change in 
emphasis or distribution of funds at this time.
    Question. Why does the budget move only the Hazardous Fuels 
program, but not the other research or grants programs created by the 
National Fire Plan, that have also been funded within Wildland Fire 
Management over the last 15 years?
    Answer. Because hazardous fuels management occurs primarily on 
National Forest System lands, hazardous fuels treatments will be better 
coordinated with other National Forest System treatments, which should 
improve effectiveness and allow the Forest Service to improve our 
ability to achieve integrated outcomes in a financially constrained 
reality. The National Fire Plan Research and Development program 
conducts research to support management of fire-affected landscapes to 
sustain forest health, reduce the risk of fire, and ensure public and 
firefighter safety. The State Fire Assistance and Volunteer Fire 
Assistance programs provide financial assistance to State and 
qualifying volunteer fire departments to protect Federal, State, and 
private forestlands threatened by wildfire and to ensure an all-lands 
approach to wildland fire management. These programs are closely 
aligned and coordinated with the Preparedness and Suppression programs 
that continue to be housed within Wildland Fire Management.
    Question. State and Volunteer Fire Assistance are proposed for cuts 
of 11 and 23 percent respectively. How many fewer fire engines or 
equipment will State and local partners be able to purchase and outfit?
    Answer. State Fire Assistance funding is allocated to the State 
forestry agencies and they use it, among other purposes, for the 
purchase of engines, dozers, equipment, training and hiring of 
personnel for their State forestry agencies. Of the portion of the 
funds spent on engines (which are generally replaced on a 5-6 year 
cycle), a Type 3 engine generally costs $280,000 and a Type 6 engine 
generally costs $150,000 each, so the number of engines going 
unpurchased would be based on the needs of States and cannot be 
quantified for this response.
    Volunteer Fire Assistance (VFA) funding supports volunteer fire 
departments (VFDs). VFDs do not purchase new engines with VFA funding 
but use the funding to convert surplus military trucks into wildland 
engines at a cost of approximately $30,000 each. At this cost, 
approximately 45 fewer surplus trucks would be converted for service in 
2018.
    Question. The budget zeroes out the Joint Fire Science program, 
which is a partnership between Forest Service and the Interior 
Department, stating that it is duplicative of other fire research. 
However, Interior does not eliminate their funding for this program. 
Will the Forest Service provide other funds to this joint endeavor, or 
will it rely on Interior to pay for it all
    Answer. The President's budget proposes to eliminate the Forest 
Service's participation in the Joint Fire Science Program (JFSP). The 
agency will complete existing JFSP-funded projects but will not 
contribute additional funds to the program. Out of its appropriation, 
the Forest Service will continue management-driven fire research that 
is similar to or complements JFSP research.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
mark twain national forest--collaborative forest landscape restoration 
                                program
    Question. Mr. Tidwell, I have previously communicated with you 
regarding the management of the Mark Twain National Forest (MTNF) and 
specifically actions taken under the Collaborative Forest Landscape 
Restoration Program (CFLRP). In recent years, management actions 
performed at MTNF have seemed to focus almost exclusively on 
environmental restoration and less on collaborative approaches with 
input and involvement from local communities. Unfortunately, this lack 
of cooperation has led to decreased forest health and less 
opportunities for the forest products industry workforce. One such 
example can be seen in the fact that MNTF experiences annual hardwood 
mortality equivalent to 200 million board feet. These are resources 
that our forest products industry and local communities can and want to 
harvest in a sustainable manner. Unfortunately, because of misguided 
programs and bureaucratic inefficiencies, MNTF has only seen a maximum 
of 70 million board feet of timber harvested a year or 1/3rd of the 
total mortality volume alone. I am encouraged that your budget calls 
for the elimination of the CFLRP.
    Can you elaborate on the decision to propose the elimination of 
this program?
    Answer. CFLRP outcomes and outputs were duplicative with other 
Forest Service programs. By eliminating CFLRP, the fiscal year 2018 
budget proposal reduces duplication among Federal programs and 
refocuses how the Forest Service is managing national forests and 
grasslands. The Forest Service can work collaboratively on projects 
without a separate CFLR program and will continue to promote 
collaborative forest management and landscape scale restoration 
strategies within our other programs.
    Existing CFLRP projects, and the collaboratives they support, will 
remain in place, and will be funded through other agency programs that 
do restoration work. The Forest Service will continue to promote 
collaborative forest management and landscape scale restoration 
strategies within our other programs.
    Question. Can you describe how eliminating this program will reduce 
duplication with other Forest Service programs?
    Answer. Other Forest Service programs also do restoration work on 
National Forest System lands, including the Integrated Resource 
Restoration (IRR) program, which includes the Forest Products program, 
the Hazardous Fuels program, and activities funded under the Vegetation 
and Watershed Management and Wildlife and Fisheries Management 
programs. While existing CFLRP projects can be funded at the forest, 
regional and national levels, we will continue to promote collaborative 
forest management and better integration in pursuit of outcomes across 
all our programs.
                        forest products program
    Question. The fiscal year 2018 budget request call for bolstering 
the Forest Products Program with a planned sale target of 3.2 billion 
board feet of timber. I believe it is important to not only set a 
reasonable sale target for this year, but to also take actions that 
reinforce the timber sale pipeline to take full advantage or future 
increases in timber sales.
    Can you tell me any actions the Forest Service is taking, or 
planning to take, to strengthen the timber sale pipeline?
    Answer. The agency is taking a number of steps to build capacity 
and address other issues that have hindered our efforts to reach higher 
output levels.
    Greater utilization of the Good Neighbor Authority will help 
leverage our capacity without adding additional permanent positions. A 
total of 95 Good Neighbor agreements in 29 States have been used to 
perform a variety of restoration services.
    The Forest Service has developed and is implementing a strategy to 
address the issue of timber sales that receive no bids. Regions are re-
evaluating the logging and haul costs to develop more accurate data. 
Regional Office appraisal specialists are reviewing a higher percentage 
of appraisals prior to advertisement and working with the forests to 
develop feasible timber sales.
    The Forest Service is addressing mill capacity by reviewing 
available mill locations and increasing restoration investments there. 
We are encouraging local industry to participate in the NEPA/sale 
planning process and coordinating with entrepreneurs who are looking to 
invest in infrastructure (shavings plants, pellet manufacturing) that 
could help absorb some of the low value material on some timber sales. 
Industry across the country is investing in new products/markets such 
Glulam and cross laminate beams.
    Question. Do you foresee the potential for an increase in the sales 
target in coming years?
    Answer. Yes. The agency is taking a number of steps to increase our 
capacity and ability to achieve greater timber outputs over the next 
several years. We are investing in Indefinite Delivery/Indefinite 
Quantity (IDIQ) contracts to increase NEPA and sale preparation 
capacity. Training courses are being developed for NEPA, Stewardship 
Contracting, and the use of other Farm Bill authorities, including 
Designation by Prescription which increases the efficiency of timber 
sale preparation. We expect to continue utilizing all of the Farm Bill 
authorities, including Good Neighbor, Stewardship Contacting, and 
Insect and Disease Designations to increase our ability to reach higher 
output levels.
                      public private partnerships
    Question. Public Private Partnerships are a key feature of many of 
the administration's infrastructure and transportation proposals. 
Looking at how the Forest Service interacts with industry, I think 
there is an opportunity to explore expansion of public private 
partnerships through stewardship agreements, timber sales, or other 
innovative initiatives. Utilizing the private sector can provide dual 
benefits of improving forest management while creating jobs and 
increasing economic activity.
    Is the Forest Service currently working on any new initiatives that 
would allow the Forest Service to better utilize the private sector for 
forest management or other functions?
    Answer. The Forest Service is exploring the potential use of 
innovative financing mechanisms, such as partnerships to protect 
critical water sources through on-the-ground forest management and 
restoration, the potential for performance bonds linked to water 
security and wildfire/flood prevention benefits, and possible ``pay for 
success'' models to fund sustainable infrastructure. We are in the 
feasibility and site scoping stage of piloting some of these models.
    Question. Are there existing programs that can be strengthened to 
allow the private sector to perform management activities that the 
Forest Service has not had the resources or ability to address?
    Answer. The Forest Service is looking closely at how we can 
continue to build on private sector partnerships to achieve an array of 
mutually beneficial outcomes. Healthy forests can reduce costs to 
municipalities, utilities, and water-dependent companies and provide 
jobs in rural areas. We are actively exploring the use of innovative 
financing mechanisms to fund restoration work and are in the 
feasibility and site scoping stage of several promising models. The 
Forest Service has also seen success with more traditional 
partnerships, such as with the Coca Cola Company that has replenished 
over 1 billion liters of water within watersheds near bottling and 
production facilities around the country.
    We continue to explore and use existing programs that strengthen 
our ability to perform beneficial activities using existing authorities 
like the Tribal Forest Protection Act, Stewardship Contracting, and 
Wyden Authority. Successful partnerships and collaborative efforts have 
led to the restoration of millions of acres of terrestrial habitat, and 
thousands of miles of streams.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                          cottonwood decision
    Question. Senator Tester and I have introduced legislation (S. 605) 
to statutorily reverse the disastrous Ninth Circuit Court decision in 
Cottonwood Environmental Law Center vs. U.S. Forest Service. According 
to the Obama Administration, this decision has the ``potential to 
cripple'' Federal land management across Ninth Circuit states. Citing 
the Cottonwood decision, courts have already halted four forest health 
projects in Montana.
    Does the Forest Service support the bipartisan effort to 
statutorily reverse this decision?
    Answer. Yes. The Department, working with the Office of General 
Counsel, provided language to resolve the Cottonwood decision in 
response to legislative drafting requests. Briefings have occurred with 
Senate and House committees as well as individual Congressional staffs.
    Question. Can you elaborate on the existing and potential negative 
impacts of the Cottonwood decision across Ninth Circuit States?
    Answer. The Forest Service Regions conducted an analysis of 
potential impacts of the decision and identified 80 vegetation 
management projects (timber sales, pre-commercial thinning, fuels 
treatments, prescribed burns, etc.) in the Northern Region (R1), Rocky 
Mountain Region (R2), and the Intermountain Region (R4) that could be 
litigated and/or possibly enjoined.
    Projects enjoined by these lawsuits account for approximately 29 
percent of R1's planned fiscal year 2017 timber volume. The Stonewall 
project injunction could affect 23 timber sales on 19,459 acres, 
producing 246.5 million board feet under contract, and planned in 
fiscal year 2017. All but three sales are in Montana. More than 72,000 
acres across three States and over 100 million board feet of timber 
could be enjoined. The decision could potentially affect more than 50 
percent of the agency annual offered volume.
    R1 has broad exposure from a potential blanket injunction due to 
strategic programming and partner investments in these landscapes. The 
State of Montana has invested $290,000 over 2 years into three projects 
in lynx critical habitat. These projects surround or are adjacent to 
the communities of Missoula, Whitefish, and Red Lodge. In excess of $5 
million of supplemental hazardous fuels funding has been invested on 
Federal, private, State, county, and city lands adjacent to projects 
with lynx critical habitat. These investments could be at risk if the 
Forest Service is precluded from implementing vegetation treatments in 
lynx critical habitat until consultation is completed. Potential 
affected communities include Missoula, Helena, Superior, Red Lodge, 
West Yellowstone, communities along the I-90 corridor, and others.
    Question. To be clear, do the potential impacts extend beyond just 
vegetation management projects in areas with lynx critical habitat?
    Answer. Yes. The, 9th Circuit decision in Cottonwood Environmental 
Law Center v. Krueger substantially increases Endangered Species Act 
(ESA) compliance procedural requirements while providing few or no 
benefits to listed species. The decision has broad implications that 
could force the agency to re-consult at programmatic levels (Forest 
Plans, agency rules) whenever an ESA trigger occurs: new information 
about a current species is received, critical habitat is designated, or 
there is a new listing. This new standard discounts project-level ESA 
compliance, adds 6-8 months of additional regulatory compliance, and 
may force the agency to re-consult any time new information (or other 
ESA triggers) is received (such as through a comment period on a 
project National Environmental Policy Act comment period).
    The number of lawsuits relying on this 9th Circuit decision is 
likely to increase to not only timber sale projects, but other agency 
activities in lynx habitat (e.g., grazing). There are seven lawsuits to 
date (five in 9th Circuit). The latest litigation is Native Ecosystems 
Council v. Erickson (17-0053) (Smith Shields Forest Health Project) and 
Native Ecosystems Council v. Marten (17-00047), both filed in April, 
2017. The agency has also received four additional Notices of Intent to 
sue (NOIs), which raise issues similar to those in Cottonwood for bull 
trout. We expect this trend to extend to other species such as the 
Northern Spotted Owl. This may affect projects across California, 
Oregon, Washington, Idaho, Montana, and Wyoming.
    Question. Do you agree that the Cottonwood repeal legislation would 
still be needed even after the Forest Service completes the ongoing re-
initiation of consultation concerning lynx?
    Answer. Yes. As stated above, we anticipate this litigation trend 
to continue and spread to other species affecting numerous programs and 
activities across the Forest Service. Based on litigation related to 
Cottonwood, the Forest Service has begun the process of reinitiating 
consultation on the Bull Trout Critical Habitat.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                             tree mortality
    Question. California's historic 5-year drought killed over 102 
million trees across the State, and the impacts will continue to be 
felt for years to come. Due to the drought, bark beetles proliferated 
at much higher rates, and the weakened trees could not fend them off. 
Even with record rains this past winter, trees will continue to die, 
and fire risk will continue to grow unless the pace and scale of 
hazardous fuels removal projects is accelerated.
    Additionally, the record-setting precipitation has only added to 
safety hazards, with oversaturation increasing the risk of dead trees 
falling on people, roads, critical infrastructure, and into rivers and 
streams. According to the Forest Service, it typically takes one to 3 
years after an above-normal precipitation year before trees regain 
their natural defenses against bark beetles.
    Forest Service Region 5, has stated there are 90,000 NEPA-ready 
acres in high hazard zones ready for hazardous tree removal projects.
    How do you plan to address California's tree mortality crisis?
    Answer. The agency's focus remains on mitigating hazards in areas 
where dead trees threaten life and property (high hazard zones). We 
also continue to focus on fuel break maintenance for fire protection.
    In fiscal year 2016, the agency redirected $43 million to remove 
dead and dying trees to help protect the public and employees from 
falling trees and wildfire risk in high hazard areas near communities, 
in recreation sites, along roads and trails. In fiscal year 2017, the 
agency will direct about $37 million to continue to address dead tree 
removal in and around communities, recreation sites, along roads, 
trails, and other values at risk. For fiscal year 2018, the Forest 
Service will remove dead trees within the NEPA-ready acres in high 
hazard areas on the Sequoia, Sierra, and Stanislaus National Forests as 
funding is identified.
    Question. Will you provide or reprogram additional resources to 
ensure Region 5 can begin tree removal work on the 90,000 NEPA-ready 
acres, which I understand is estimated to cost $90 million?
    Answer. The agency will look for opportunities to identify and 
provide additional funding to complete the remaining 90,000 NEPA-ready 
acres in the high hazard acres on the Sequoia, Sierra, and Stanislaus 
National Forests.
    Question. Will additional resources be provided for the Tree 
Mortality Task Force to complete essential work to reduce fire risk and 
also improve forest health?
    Answer. The Forest Service has committed to keeping tree mortality 
response as one of the Region's top priorities in California. Working 
alongside our partners on the Governor's Tree Mortality Task Force, we 
will continue to focus and work together to help address the health and 
safety concerns posed by dead trees in California. Building on the work 
we completed using funding provided in fiscal year 2016 and fiscal year 
2017, we will continue to look for opportunities to apply additional 
resources towards this work.
    The second phase of the agency's tree mortality response will be 
challenging. We will need to concurrently focus on felling hazard trees 
as well as ecological restoration of our forests to improve forest 
health, protect critical watersheds, and rebuild forest resilience.
               lake tahoe restoration act implementation
    Question. The Lake Tahoe Restoration Act was enacted last December 
and renews the Federal commitment to restoring and preserving this 
national treasure and its basin.
    With $415 million authorized over 7 years, Federal agencies will 
continue to play an important role in the historic partnership between 
nonprofit, private sector, State, and local entities committed to 
combating invasive species, reducing fire risk and managing forests, 
managing stormwater pollution, and other important restoration goals.
    How do you plan to implement the Lake Tahoe Restoration Act and 
provide the funds necessary to make necessary advances in restoring 
Lake Tahoe?
    Answer. The Lake Tahoe Basin Management Unit (LTBMU) will seek 
opportunities to leverage non-Federal contributions and continue to 
move ahead with fire risk reduction projects and utilize the 
categorical exclusion to reduce forest fuels, as identified in the Act. 
The LTBMU's program of work remains aligned with regional priorities on 
ecological restoration and the projects identified within the Lake 
Tahoe Environmental Improvement Program. Agency funds received to 
invest in the LTBMU, including from appropriation, the Southern Nevada 
Public Land Management Act, and other sources, will continue to treat 
five- to seven-thousand acres of hazardous fuels annually. These funds 
will support the ecological projects underway, which have been 
identified as priorities for future planning, design, and 
implementation.
                  lake tahoe western side tree removal
    Question. I have been visiting Lake Tahoe since childhood, and I 
was recently there in May. I was alarmed at the amount of dead and 
dying trees, especially on the western shore of the lake. As you know, 
California is experiencing a historic tree mortality crisis, and the 
Lake Tahoe Basin is no exception.
    What efforts is the Forest Service undertaking to remove hazardous 
dead trees, especially on the western shore of the lake near people and 
infrastructure, where we have previously seen serious wildfires?
    Answer. The Lake Tahoe Basin Management Unit (LTBMU) is addressing 
tree mortality and the removal of hazard trees through a variety of 
efforts and partnerships. The Forest Service, along with the Tahoe Fire 
and Fuels Team and the Tahoe Regional Planning Agency, has established 
the Lake Tahoe Basin Tree Mortality Task Force for coordination of tree 
mortality response between multiple stakeholders. Fuels reduction and 
forest health projects are continuing around Lake Tahoe, and within 
those projects we are removing dead and dying trees. Additionally, a 
Decision Memo was recently signed approving the West Shore Wildland 
Urban Interface (WUI) Fuels Reduction and Forest Health project. This 
project will implement fuels and forest health treatments on 4,975 
acres along the west shore and will also include the removal of dead 
and dying trees. The LTBMU has been working to secure funding to 
implement that project.
    In April of 2017, the LTBMU completed inventories of all developed 
recreation sites within the Tahoe Basin for hazard trees. Prior to 
opening these sites, permits were issued and trees were removed by 
concessionaires and partners. In addition, Forest Service crews have 
removed hazard trees at recreation sites not managed under permit. With 
assistance from the Tahoe Rim Trail Association, the LTBMU is 
inventorying hazard trees along forest trails on the Nevada side of the 
Tahoe Basin; this effort will expand to the California side, should 
funding become available.
    Crews are patrolling National Forest System roads and inventorying 
hazard trees, prioritizing them for removal. Agency fire crews are 
removing hazards along those roads with the help of partners, such as 
the California Conservation Corps and Calaveras Healthy Impact Product 
Solutions (CHIPS)--Washoe Tribe Crew, both crews paid for with Forest 
Service tree mortality funding. The LTBMU is also removing hazard trees 
along forest boundaries adjacent to private lands as notifications are 
received from private parties. We are currently working with Caltrans, 
Liberty Energy, Nevada Energy, and Pacific Gas and Electric on tree 
removal projects along State highways, including State Route 89 along 
the west shore, and several utility corridors.
    Question. How is Forest Service addressing this threat to Lake 
Tahoe communities?
    Answer. The Lake Tahoe Basin Management Unit (LTBMU) has been a 
focus of the Pacific Southwest Region, along with other forests 
experiencing tree mortality in the region. Of the additional funding 
that has been reallocated in support of the region's tree mortality 
efforts, the LTBMU has been able to initiate agreements with partner 
organizations to increase a local response. Additionally, the Forest 
Service continues to coordinate and actively support California's 
statewide tree mortality task force. As additional resources are made 
available, priority projects, including those in Lake Tahoe, will be 
considered.
    Additionally, in 2016, in collaboration with the National Forest 
Foundation, the California Tahoe Conservancy, and other partners, the 
Forest Service launched the Lake Tahoe West Large Landscape 
Collaborative (referred to as ``Lake Tahoe West''). Lake Tahoe West is 
a stakeholder-informed collaborative effort, utilizing the best 
available science to develop a Landscape Resiliency Assessment, 
Landscape Restoration Strategy. It will also produce an environmental 
analysis for a series of restoration projects specifically designed to 
improve the resiliency of the west shore landscape to disturbances 
including, fire, insects and diseases, and drought.
                        expanding mill capacity
    Question. One of the recurring issues that are currently impeding 
dead tree removal work in California is the lack of sufficient mill 
capacity to process all of the dead trees.
    How is the Forest Service working with local mills in California to 
increase capacity and accelerate transportation of harvested National 
Forest material to local mills as quickly as possible?
    Answer. The Forest Service is taking a multi-faceted approach to 
remove unprecedented volumes of dead and dying trees:
    1.  Statewide Wood Products Industry Opportunity Study.--A 
statewide study funded by the Forest Service was completed in 2015 to 
explore and define feasible technology and markets that could absorb 
more forest thinning and non-saw log material. Results helped focus 
both regional Forest Service grants and State Tree Mortality Task Force 
market development efforts. Subsequently, Forest Service Wood 
Innovation Grants were awarded to study feasibility of an oriented 
strandboard plant to lease harvest and transport equipment and to 
perform product testing for biochar.
    2.  Accelerate Transportation.--Removing the trees in a timely 
manner will help preserve the tree value enough to help defray costs of 
harvest and transportation. National forests are using all NEPA tools, 
including NEPA streamlining authority provided in the Farm Bill Insect 
and Disease provision, to shorten environmental review and still comply 
with laws and regulations. Industry has also brought up the issue of 
insufficient loggers, logging equipment, and trucks due to reductions 
in overall timber sales and uncertainty about biomass power plant 
contracts.
    3.  Biomass Efforts.--The Forest Service has a strong interest in 
biomass development efforts and provided millions of dollars in grant 
funds to accelerate development of small biomass plants closer to 
forests. Under the State of California BioMAT (Biomass Market Adjusting 
Tariff) program, one plant is under construction in North Fork, near 
the epicenter of the tree mortality in the Sierras, and others are 
being developed in Wilseyville and Mariposa.
    In addition, newly awarded 5-year biomass power contracts require 
annually increasing amounts of biomass to be sourced from CAL FIRE high 
hazard zones, much of it from national forests. Two of these are near 
the highest concentration of tree mortality: Rio Bravo Fresno (Fresno) 
and Pacific Ultrapower (Jamestown).
    Question. What funds is Forest Service dedicating to reducing the 
cost of transporting material to mills once harvested from Federal 
lands?
    Answer. The Forest Service Pacific Southwest Region estimates it 
would require $31-37 million in transportation subsidies for each of 
the next 5 years to move about 250 million board feet, or 50,000 
truckloads, of dead wood from CAL FIRE designated high hazard zones on 
national forests.
    The Federal Government assists with transportation costs via the 
USDA Farm Agency's Biomass Crop Assistance Program (BCAP) matching 
payments, but funds were reduced nationwide from around $12.5 million 
in 2014 to $1.5 million in 2016 and 2017. Nationwide, BCAP facilitated 
the removal of over 288,000 dry tons (approximately 65 million board 
feet) of forest residue from national forests between 2014 and 2016. 
Fully-funded BCAP matching payments would allow that amount to increase 
to roughly 625,000 dry tons per year (approximately 153 million board 
feet).
    In addition to transportation subsidies through BCAP, the Forest 
Service is able to provide support for transportation costs using 
stewardship contracts and agreements. Where low-value forest products 
must be removed, their transportation costs may be offset by the 
inclusion of higher value forest products and/or the addition of 
appropriated funds and stewardship retained receipts.
    Investments made by the Forest Service in technologies and 
businesses that can absorb lower value logs and biomass, such as small 
biomass power plants, are expected to reduce transportation costs since 
they are located closer to the forest, though not to the extent of 
sawmills or the larger industrial biomass power plants.
    Question. Is the Forest Service willing to enter into stewardship 
contracts longer than 10 years in order to incentivize the creation of 
additional mill capacity?
    Answer. Yes, we would. However, current stewardship contract 
authority allows for a 10 year maximum.
                           blue-stained wood
    Question. I understand from Forest Service studies that the blue-
stained wood resulting from bark beetle infestations, is equally as 
strong as a live tree if harvested within the appropriate time-frame.
    What, if any, actions is Forest Service undertaking to promote the 
use of ``blue-stained'' pine, both commercially and by consumers?
    Answer. Blue stain wood has been an issue for the Forest Service 
and industry since at least the 1920s. Recently, the Forest Service has 
taken a number of steps to encourage more use of blue-stain lumber, 
both nationally and in California.
    Mass Timber.--The Forest Service is active in supporting 
development of cross-laminated timber (CLT) and mass timber veneer to 
increase the markets for dimension lumber. Thirteen Forest Service 2017 
Wood Innovation Grants were awarded to encourage technology and market 
development, including one to a university to further test 
incorporation of blue stain dimension lumber.
    Other examples from California include:
  --A pilot project to design and utilize blue stain lumber for basic 
        conference room furniture, wall displays, and interpretive 
        displays to be promoted inside the agency and to partners.
  --Two Wood Innovation Grants, one awarded to a local non-profit to 
        better assess the blue stain market and increase sales of 
        strongly differentiated blue stain wood, and another to a 
        small, portable mill collaborative to increase use of blue 
        stain lumber and better service small, non-industrial 
        landowners. Previous Forest Service grants have supported 
        animal bedding, mulch, and pallet operations that can use blue 
        stain trees.
  --The Forest Service is working with CalTrans to incorporate blue 
        stain ponderosa pine as an acceptable species to be treated and 
        used for sign posts and potentially to be tested for use as 
        highway guardrail posts and blocking.
                        good neighbor authority
    Question. The Good Neighbor Authority allows the Forest Service to 
enter into cooperative agreements or contracts with States to allow 
States to perform watershed restoration and forest management services 
on National Forest System lands. Congress has passed two laws expanding 
Good Neighbor Authority: the fiscal year 2014 Appropriations Act and 
the 2014 Farm Bill.
    How is Forest Service utilizing the Good Neighbor Authority in 
California to address the tree mortality crisis and reforest areas that 
have previously burned?
    Answer. In February 2016, under the 2014 Farm Bill authority, the 
Forest Service in California signed a broadly focused ``Master 
Agreement'' under Good Neighbor Authority (GNA) with the California 
Natural Resources Agency (CANRA). It allows for Supplemental Project 
Agreements (SPAs) to be signed at the national forest-level with any of 
the CANRA associated State agencies to carry out authorized forest, 
rangeland, and watershed restoration. To date, two SPAs have been 
signed, both with CAL FIRE.
    The best example of GNA being used to address tree mortality is 
with the Sierra National Forest and CAL FIRE in and around the High 
Sierra Ranger District where an executed SPA allows for CAL FIRE crews 
to remove standing dead trees that are a hazard to public safety 
(hazard trees) on National Forest System lands. Combined with a 
complementary Wyden Authority Agreement, which allows Forest Service 
crews to work on private and State lands, the Forest Service and CAL 
FIRE can work collaboratively on all lands, leveraging their strengths 
and resources over the next 5 years to treat insect and disease tree 
mortality areas to reduce fire risk, maintain public safety, and 
improve forest health. There are no funds transferred between the two 
agencies as part of this SPA. Only the first year's activities were 
defined and subsequent work will be defined as needed, including 
potential reforestation of areas.
    Additionally, the Eldorado National Forest and CAL FIRE have 
established a GNA to implement parts of the South Fork American River 
(SOFAR) and Fire Adapted 50 projects addressing fuels reduction and 
fire breaks for surrounding communities. The Lake Tahoe Basin 
Management Unit, along with the Humboldt-Toiyabe National Forest and 
the Bureau of Land Management- Nevada State Office, are in the final 
stages of negotiating a Master Agreement with the Nevada Department of 
Conservation and Natural Resources, Nevada Department of Wildlife, and 
Nevada Department of Agriculture. At least two other forests are 
working with State CANRA agencies to negotiate additional Good Neighbor 
Agreements this year.
    In addition to areas that have been previously burned, the Forest 
Service's Tree Mortality Response Team is currently identifying tree 
mortality areas where the GNA could be used to work across boundaries 
and treat larger landscapes in cooperation with our partners.
                         wildfire budget reform
    Question. Over the last several years, the Forest Service has 
repeatedly sounded the alarm on the rising percentage of budgetary 
resources dedicated to the wildland fire management account due to 
longer fire seasons driven by climate change, more people living in the 
Wildland Urban Interface, and other factors.
    There have been previous legislative proposals to create a budget 
cap adjustment, as well as other mechanisms, that would free up 
additional resources so that the Forest Service can devote more of its 
funding to forest health and mitigation, rather than expensive 
suppression activities.
    As the Forest Service's own analysis shows, for every $1 decrease 
in preparedness, suppression costs rise by $1.70 on average. In the 
face of this challenge, the budget proposes a $937 million decrease in 
the Forest Service budget with no proposal to fix the current problem 
of both the rising 10-year suppression average and fire borrowing.
    How does the Forest Service plan on being able to fulfill its 
mission while requesting a 16 percent cut to its budget?
    Answer. The fiscal year 2018 President's budget focuses resources 
on maintaining existing national forests and grasslands and has reduced 
duplicative efforts. We will also maximize use of our mandatory 
programs. This budget will require greater shared stewardship of the 
land between the Forest Service and State and local communities to 
achieve our work.
    The fiscal year 2018 President's budget does not propose funding 
for the FLAME Wildfire Suppression Reserve Fund. There are 
inefficiencies in operating between two accounts for one purpose; 
therefore the budget proposes to fully fund the 10-year average for 
Suppression and not request funding in the FLAME account to maximize 
operational and administrative efficiencies.
    The administration is committed to addressing the growth of fire 
programs as a percent of the agency's budget and ending the practice of 
transferring funds from non-fire programs when suppression funds fall 
short before the end of the fiscal year. Principals at USDA and the 
Department of the Interior will work with the Office of Management and 
Budget to develop a responsible approach that addresses risk 
management, performance accountability, cost containment, and the role 
of State and local government partners in ensuring adequate funds are 
available for wildfire suppression without undue disruption to land 
management operations.
    Question. Why didn't the Forest Service request legislative 
language for the wildfire budget fix, as the previous administration 
did?
    Answer. The administration is reviewing potential administrative 
actions and legislative options to address longstanding wildland fire 
funding concerns. Principals at USDA and DOI will work with the Office 
of Management and Budget to develop a responsible approach that 
addresses risk management, performance accountability, cost 
containment, and the role of State and local government partners in 
ensuring adequate funds are available for wildfire suppression without 
undue disruption to land management operations.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
    Question. During the proposed budget for fiscal year 2017, the 
Forest Service expressed its support for Congressional reauthorization 
of the Secure Rural Schools and Self-Determination Act. The agency 
emphasized that SRS supported economic opportunities for local 
communities, and that Title II funds increased local participation in 
forest management. As we consider the budget for fiscal year 2018, SRS 
still hasn't been reauthorized and the Forest Service has not included 
a recommendation to reauthorize in its budget proposal.
    Does the Forest Service continue to support Congressional efforts 
to reauthorize the Secure Rural Schools and Self Determination Act in a 
way that provides funding commensurate with fiscal year 2015 levels?
    Answer. The Forest Service is committed to working to find ways to 
provide more certainty to counties and the agency is willing to work 
with Congress to address this.
    Question. What role does the Forest Service plan to give to 
Resource Advisory Committees without reauthorization of the SRS 
program?
    Answer. Title II of the Secure Rural Schools Act provided for the 
establishment of resource advisory committees (RACs) to review and 
recommend projects to forest supervisors. RACs are chartered for title 
II purposes only. RACs have until September 30, 2017 to recommend title 
II projects from fiscal years 2014-2015. The Forest Service has not 
determined whether to re-charter RACs for other purposes if the SRS Act 
is not reauthorized.

                          SUBCOMMITTEE RECESS

    A lot that we need to do within our national forests. We 
appreciate your leadership, and we stand adjourned.
    [Whereupon, at 11:23 a.m., Wednesday, June 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
